<html>
<title> - EXAMINING THE COVID-19 RESPONSE IN NATIVE COMMUNITIES: NATIVE TOURISM ECONOMIES ONE YEAR LATER</title>
<body><pre>[Senate Hearing 117-70]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-70

               EXAMINING THE COVID-19 RESPONSE IN NATIVE 
                 COMMUNITIES: NATIVE TOURISM ECONOMIES 
                 ONE YEAR LATER

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2021

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   

                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-580 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------  



                      COMMITTEE ON INDIAN AFFAIRS

                     BRIAN SCHATZ, Hawaii, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
MARIA CANTWELL, Washington           JOHN HOEVEN, North Dakota
JON TESTER, Montana                  JAMES LANKFORD, Oklahoma
CATHERINE CORTEZ MASTO, Nevada       STEVE DAINES, Montana
TINA SMITH, Minnesota                MIKE ROUNDS, South Dakota
BEN RAY LUJAN, New Mexico            JERRY MORAN, Kansas
       Jennifer Romero, Majority Staff Director and Chief Counsel
     T. Michael Andrews, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2021.....................................     1
Statement of Senator Cortez Masto................................     4
Statement of Senator Hoeven......................................    35
Statement of Senator Murkowski...................................     2
Statement of Senator Schatz......................................     1

                               Witnesses

Alvord, Dennis, Acting Assistant Secretary for Economic 
  Development, U.S. Economic Development Administration, U.S. 
  Department of Commerce.........................................     5
    Prepared statement...........................................     7
De Fries, John, President/CEO, Hawaii Tourism Authority..........    16
    Prepared statement...........................................    17
Dick, Russell, President/CEO, Huna Totem Corporation.............    24
    Prepared statement...........................................    26
Rodman, Anthony, Acting Director, Office of Indian Economic 
  Development, U.S. Department of the Interior...................    12
    Prepared statement...........................................    13
Rupert, Sherry, CEO, American Indian Alaska Native Tourism 
  Association....................................................    19
    Prepared statement...........................................    21

                                Appendix

Response to written questions submitted by Hon. Brian Schatz to:
    Dennis Alvord................................................    39
    John De Fries................................................    39
    Anthony Rodman...............................................    42
    Sherry Rupert................................................    41

 
                  EXAMINING THE COVID-19 RESPONSE IN 
      NATIVE COMMUNITIES: NATIVE TOURISM ECONOMIES ONE YEAR LATER

                              ----------                              


                        WEDNESDAY, MAY 12, 2021


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
628, Dirksen Senate Office Building, Hon. Brian Schatz, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good afternoon.
    Today's oversight hearing, the third in this Committee's 
COVID-19 Response series, will focus on the pandemic's impact 
on Native tourism economies.
    Native communities across the Country have diversified 
their economies with domestic and international tourism to 
create jobs for community members, boost tribal government 
revenue, and improve living conditions. But after COVID-19 hit, 
many Native communities imposed lockdowns and closed their 
borders and businesses to outside visitors.
    The temporary closure of tribal businesses, including 
tourism-driven enterprises, disrupted a major revenue source 
for funding tribal government services, and caused a ripple 
effect through adjacent non-Native communities, many of which 
rely on tribal enterprise to boost their own economies.
    Congress responded by providing funding through the 
American Rescue Plan act to help Native communities rebuild 
their economies. This included $20 billion in recovery funds 
and additional funding for programs like the EDA grants for 
tourism. Yes, help is here, but many Native communities need 
particular resources to regroup, revitalize and expand their 
own tourism economies.
    The Native American Tourism and Improving Visitor 
Experience Act, or NATIVE Act, would help Native communities to 
do just that. Enacted in 2016, the NATIVE Act empowers Native 
communities to shape their own tourism economies and provide 
unique, sustainable cultural tourism opportunities within the 
United States. Successful implementation of the NATIVE Act can 
help drive economic recovery in all Native communities.
    Expanding tourism in Native communities requires 
infrastructure to ensure that their guests have an enjoyable 
experience. Poor road conditions often make attractive tourist 
destinations inaccessible, inadequate sanitation can't support 
large tour groups, and those groups often have to spend their 
dollars elsewhere.
    The United States must fulfill its responsibility to Native 
Hawaiians, Alaska Natives and tribal communities to ensure that 
they have the infrastructure to build back better for a robust 
tourism economy. As vaccines become more readily available to 
the public, many Native communities are reopening their 
businesses, including tourism enterprises. That is welcome 
news. But the long-term impacts of COVID-19 to tribal and 
Native tourism economies and what it will take to return to 
pre-COVID visitor levels has not yet been examined.
    So I look forward to hearing from the Administration and 
Native tourism experts on these impacts and the Federal 
resources and infrastructure needed to get Native tourism 
economies back on track.
    Before I turn to the Vice Chair, I would like to extend my 
aloha to Mr. De Fries and extend my thanks to our witnesses for 
joining us today.
    Vice Chair Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
for this very important hearing this afternoon. Tsu haa k t 
?eiwa.aa. I will look at our witness here to correct 
pronunciation, but this is classic Tlingit greeting meaning, 
the daylight broke on us again. Again, these are greetings that 
convey more than a simple hello.
    I think it is perhaps very fitting that as we are seeing 
the impact from the vaccine, we are hoping to emerge from this 
pandemic, that we are focusing on some of the sectors in our 
economy that have been particularly hard-hit, and that is 
clearly the area of tourism.
    I think there is a good sense of hope for the future of 
tourism in our Native communities, even though this is kind of 
an unsettling and an uncertain time. Native tourism touches on 
so many extraordinary aspects of Indian Country and Alaska 
Native communities, our Native Hawaiians, vibrant cultures, its 
languages, its economic empowerment, resiliency, the 
opportunity to share Native history and traditions, and 
perpetuate Native culture for future generations.
    The positive impacts that we have seen in providing local 
jobs, growing tribal economies, I think we recognize that 
Native tourism is perhaps still really in its infancy. But 
there is tremendous growth projected. One indication of this is 
before the pandemic, visitor volume to American Indian 
communities from overseas more than doubled between 2007 and 
2019, to nearly 1.9 million, according to the U.S. Department 
of Commerce.
    In Alaska, we know firsthand the importance of tourism to 
our State's economy. We are really struggling right now. Mr. 
Chairman, you come from a State that gets it in terms of the 
tourist traffic that comes to you.
    Most tourists who come to Hawaii come by plane. Most that 
come to Alaska come by plane, but in fairness, we have a 
significant potion that come to us through the cruise lines; 
1.3 million tourists arrived in Alaska by cruise ship in 2019. 
Then when COVID hit, we had 48, not 48,000, but 48 passengers 
who came.
    So when you think about the impact to your communities, 
whether they are the community of Skagway, Hoonah, Seward, 
Anchorage, up in the interior, out to Unalaska to the west, all 
have been negatively impacted. Our rail-built communities have 
been impacted by the loss of cruise ships, because these folks 
book excursions into Denali and to Fairbanks. The loss that we 
have seen in this past year and a half now has been 
considerable.
    In 2020 alone, the cancellation of the cruise ship season 
has caused an estimated revenue loss of over $90 million to the 
State, $98 million to local governments, over $1 billion in 
lost revenue for local businesses. We are looking now at a 
season that is pretty much on the rocks, if you will, when we 
talk about the 2021 cruise season. This is the effort that 
several of us have made to alleviate the Passenger Vessel 
Services Act restriction that prevents cruise ships from 
transporting passengers between Washington State and Alaska.
    Unfortunately, we have a foreign country that intervenes 
between our next closest continental United States. It has 
effectively, between the CDC and Canada, closed all cruise 
activities. So the opportunity to hear today from one of our 
witnesses, and it is wonderful to have you here in person, 
Russell Dick is the President and CEO of the Huna Totem 
Corporation. Hoonah is a port community, and it is directly 
impacted by these no-sail orders.
    I think we will hear from Mr. Dick's testimony today what 
this means to a small community. How we are able to support 
Native tourism going forward is going to be considerable. It is 
going to be important. It is going to take many different 
forms.
    In Alaska, the contours of Native tourism and economic 
development are shaped by our unique Federal Indian policy in 
the State. You have heard me speak many, many times of ANCSA, 
the Native Claims Settlement Act, and how our ANCs, our Alaska 
Native Corporations, along with sovereign tribes and tribal 
non-profits, provide this wide array of services for our Native 
people. Well, the Huna Totem Corporation, which Mr. Dick 
represents, is a Native village corporation formed under the 
terms of ANCSA. Since its incorporation, it has advanced the 
economic aspirations and culture of the Xunaa Kaawu, meaning 
the people of Hoonah.
    Many of the tribal enterprises in the lower 48 who are 
engaged in hospitality and tourism provide revenue directly to 
tribal governments. ANCs provide economic and social benefits 
directly to Native individuals mandated by ANCSA, and these 
benefits come in many, many different forms, whether they be 
dividends, employment, cultural preservation, or the like.
    The opportunity to hear again the impact on Native tourism, 
what we are seeing in Alaska, the impact to this small 
community of Hoonah, as we will hear today, is powerful 
testimony. In fact, it is so strong that when I read it last 
night I thought, this needs to get out beyond just the Indian 
Affairs Committee. I provided a copy this morning to Secretary 
Mayorkas and Dr. Walensky at the CDC. Because I think it speaks 
directly to the impact, when you have a Federal law like PVSA 
which limits your ability to provide for jobs and economy for a 
small Native community, the community of Hoonah, but the 
broader opportunities to the Native people within the regions 
that are provided through our ANC and our village corporations. 
So we will hear that from Mr. Dick.
    I look forward to our other witnesses talking about what 
you have raised, Mr. Chairman, the NATIVE Act, and the 
considerable benefits that they provide as well. So I look 
forward to the conversation today and the opportunity to hear 
from our witnesses.
    The Chairman. Thank you, Vice Chair Murkowski. I think we 
have Senator Cortez Masto wishing to make an opening statement.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman, and thank 
you to the Ranking Member. I appreciate your holding a hearing 
on this important topic. And thank you to all of the witnesses 
for being here.
    The impact that COVID-19 has had on tourism is one of the 
most important issues facing my State of Nevada. I am excited 
to hear from our witnesses today about how we can address 
declines in travel and tourism in Native communities.
    I am also very excited to introduce Sherry Rupert, who is 
here today as one of our panelists. Ms. Rupert has served as 
the CEO of the American Indian Alaska Native Tourism 
Association since 2019. She has been a strong advocate for 
travel and tourism as an economic driver for tribal 
communities. Prior to become CEO, she served as president of 
the board of directors.
    She has also worked in Nevada State government. She has 
been in Nevada government almost three decades, including 
serving as our executive director of the Nevada Indian 
Commission from 2005 to 2019. I have had the opportunity to 
work with Ms. Rupert in Nevada, and was so pleased that not 
only was she there, but her compassion and her ability to 
really bring for the issues that impacting the Native community 
and work on behalf of the tribes in Nevada.
    Her work has been crucial in Nevada, and I am so pleased 
that she is part of this panel. We miss her, welcome her, 
though, to this Committee, and all of the work she continues. 
Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Are there any other members online wishing to make an 
opening statement? If not, we will move on to our witnesses. I 
will introduce them in order.
    First, we have Dennis Alvord, Acting Assistant Secretary 
for Economic Development, from the Economic Development 
Administration, U.S. Department of Commerce. Anthony Rodman, 
Acting Director, Office of Indian Economic Development, U.S. 
Department of the Interior. John De Fries, President and CEO, 
Hawaii Tourism Authority. Sherry Rupert, CEO, American Indian 
Alaska Native Tourism Association. And in person, Russell Dick, 
President and CEO, Huna Totem Corporation.
    I want to remind our witnesses that we have your full 
written testimony, which will be made part of the official 
hearing record. Please keep your statements to no more than 
five minutes, so that our members have time for questions. We 
do have a 3:30 vote, which we will juggle as usual. But to the 
extent that you can confine your remarks to five minutes, that 
will be very, very helpful.
    Acting Assistant Alvord, before you begin, I need to note 
that the Committee's Rule 4(b) states that if the Federal 
witness misses the Committee's 48-hour deadline for submission 
of testimony, the witness must state on the record why the 
testimony was late. So please begin your testimony with an 
explanation of why you were unable to comply with the 
Committee's rule. Mr. Alvord, please proceed.

         STATEMENT OF DENNIS ALVORD, ACTING ASSISTANT 
           SECRETARY FOR ECONOMIC DEVELOPMENT, U.S. 
           ECONOMIC DEVELOPMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Alvord. Thank you, Chairman.
    We were delayed in delivering the testimony due to 
extensive interagency coordination to make sure that we 
fulsomely compiled all of the different equities from across 
the Department to share with the Committee today. Our apologies 
for that; we will strive to do better in the future.
    Chairman Schatz, Vice Chair Murkowski, thank you for the 
opportunity to testify on behalf of the Department of Commerce 
and the Economic Development Administration. At EDA, we are 
cognizant of the unique challenges and opportunities that exist 
to support American Indians, Indian tribes, Alaska Natives, 
Native Hawaiians and other Native communities across the United 
States through our economic development grant programs.
    Since Fiscal Year 2010, EDA has invested $143.4 million in 
696 awards to tribal communities, including close to $11.3 
million of its CARES Act appropriation in 51 awards to tribal 
communities. Importantly, EDA's organic statute provides unique 
authorization that allows tribal entities to be eligible for a 
100 percent grant rate.
    We are also keenly aware of the special relationship the 
government has with tribes. In fact, earlier this year, 
President Biden signed the Presidential Memorandum on Tribal 
Consultation and Strengthening Nation to Nation Relationships, 
reaffirming its importance. Within the Department of Commerce, 
we are committed to strengthening tribal sovereignty, self-
governance, fulfillment of tribal trust responsibilities and 
treaty obligations to tribal nations. We welcome this 
opportunity to discuss this work we have carried out with our 
tribal partners and grantees.
    While I am here representing EDA, I am proud to acknowledge 
the work of several of EDA's sister bureaus within the 
Department. At NTIA, three new grant programs totaling $1.585 
billion have been established: the Tribal Broadband 
Connectivity Program, Broadband Infrastructure Program and 
Connecting Minority Communities Pilot Program. NTIA held three 
national tribal consultations and is working toward releasing 
the process and application for these funds expeditiously.
    Given the importance of broadband to economic development, 
EDA has worked closely with NTIA to coordinate on broadband 
related matters and is exploring how our funding may be 
complementary.
    ITA's U.S. Commercial Service has longstanding 
relationships with Tribal Nations and tribal-owned businesses 
through its broad program offerings that help firms export 
their goods and services around the globe.
    MBDA has a long tradition of serving American Indian, 
Alaska Native and Native Hawaiian business enterprises and 
recently redesigned its service delivery model to address 
unique business challenges in the community. In fiscal year 
2020, MBDA invested $3.6 million across 13 projects that 
provide a range of support in Indian Country. The projects 
reported nearly 3,600 minority business enterprises served 
including training that specifically addressed business impacts 
from the pandemic.
    At NOAA, the Consolidated Appropriations Acts of 2021 
includes $30 million for federally impacted by COVID-19. NOAA 
Fisheries held two tribal consultations and is working toward 
releasing the process for the application for these funds soon.
    The Census Bureau works closely with the American Indian 
and Alaska Native tribal nations on a government-to-government 
basis. In the 2020 Census, more than 200 tribes established a 
Tribal Complete Count Committee to encourage participation and 
highlight the ease, safety and importance of the Census. The 
Census Bureau continues communication and tribal consultations 
as we prepare for the release of the 2020 American Indian and 
Alaska Native data products.
    EDA's Fiscal Year 2020 appropriations included $1.5 billion 
in supplemental funding from the CARES Act to respond to 
economic injury due to COVID-19. EDA's role is to facilitate 
communities' long-term economic recovery planning, 
reconstruction, redevelopment and resiliency. To date, awards 
included assistance to 51 tribal planning organizations to aid 
economic recovery coordination.
    While we are proud of the work we have already accomplished 
under the CARES Act to support our tribal partners, we are 
aware the pandemic has caused and will continue to cause deep 
economic injury to indigenous communities in devastating and 
unprecedented ways. The American Rescue Plan allocates 
supplemental funding of $3 billion to EDA to assist communities 
nationwide, including our tribal partners, in advancing their 
Coronavirus recovery and resiliency strategies.
    EDA is finalizing its implementation plan for this funding. 
One of the pillars of that execution will focus on pursuing a 
comprehensive approach to advancing equity by focusing on 
populations in underserved communities that have been denied a 
full opportunity to participate in aspects of economic 
prosperity, including tribal entities.
    Recently, EDA conducted two tribal consultations with 
tribal leaders from across the Country to receive feedback on 
proposed regulatory changes that would broaden EDA's tribal 
eligibility to for-profit organizations which are wholly owned 
by and established for the benefit of the tribe, which is 
currently prohibited by EDA regulation. The goal of this change 
is to potentially make EDA's development assistance more 
accessible to a wider range of tribal entities as we support 
long-term economic development in more communities.
    As we seek to recover from the devastating impacts of the 
pandemic, partnership, collaboration, and fulfilling the 
Federal trust responsibilities and treaty obligations to tribal 
nations has never been more important. We are aware of our 
vital role in ensuring the funds entrusted to us are invested 
in an equitable and impactful manner, and that we are reaching 
the communities most in need of our assistance.
    I look forward to answering any questions you may have.
    [The prepared statement of Mr. Alvord follows:]

  Prepared Statement of Dennis Alvord, Acting Assistant Secretary for 
 Economic Development, U.S. Economic Development Administration, U.S. 
                         Department of Commerce
Introduction
    Chairman Schatz, Vice Chairwoman Murkowski, and members of the 
committee, thank you for this opportunity to testify on behalf of the 
Department of Commerce (DOC) and the Economic Development 
Administration (EDA). EDA's mission is to lead the federal economic 
development agenda by promoting innovation and competitiveness and 
preparing American regions for growth and success in the worldwide 
economy.
    At EDA, we are cognizant of the unique challenges and opportunities 
that exist to support American Indians, Indian tribes, Alaska Natives, 
Native Hawaiians and other Native communities across the United States 
through our economic development grant programs. Since FY2010, EDA has 
invested $143.4 million in 696 awards to tribal communities, including 
close to $11.3 million of its Coronavirus Aid, Relief, and Economic 
Security Act (CARES Act) appropriation in 51 awards to tribal 
communities. Importantly, EDA's organic statute, the Public Works and 
Economic Development Act of 1965 (PWEDA) provides an important and 
unique authorization that allows Tribal entities to be eligible for a 
100 percent grant rate, across all of EDA's PWEDA programs. No other 
category of eligible entity is provided such broad comparable 
flexibility.
    We are also keenly aware of the special relationship the Government 
has with the Tribes. As many of you know, earlier this year, President 
Biden signed the Presidential Memorandum on Tribal Consultation and 
Strengthening Nation to Nation Relationships. It directed federal 
agencies to work with Tribal Nations for the implementation of 
Executive Order 13175, Consultation and Coordination with Indian Tribal 
Governments (November 6, 2000). Within the Department of Commerce, we 
are committed to strengthening Tribal sovereignty, self-governance, 
fulfillment of federal trust responsibilities and treaty obligations to 
Tribal Nations and we welcome this opportunity to discuss the work 
we've carried out with our Tribal partners and grantees. While I am 
here representing EDA, I am proud to acknowledge the work of several of 
EDA's sister bureaus with the Department. Below represents ongoing 
programs and initiatives within the Department:
National Telecommunications and Information Administration (NTIA)
    The Consolidated Appropriations Act, 2021 provided for the 
establishment of three new grant programs totaling $1.585 billion to be 
administered by NTIA: Tribal Broadband Connectivity Program, the 
Broadband Infrastructure Program, and Connecting Minority Communities 
Pilot Program. Under the Tribal Broadband Connectivity program, 
infrastructure, training, devices, and subsidized services, as well as 
telehealth applications, remote work, and distance learning are all 
eligible for funding under this program. The Broadband Infrastructure 
program will focus on rural and unserved areas. Finally, the Connecting 
Minority Community Pilot program will serve Historically Black Colleges 
and Universities, Tribal Colleges and Universities, and Native Hawaiian 
Serving Institutions. The program will provide funding for broadband 
Internet access service or equipment, information technology personnel 
for remote educational instruction and learning. NTIA held three 
national tribal consultations and is working towards releasing the 
process and application for these funds expeditiously. Given the 
importance of broadband to economic development, EDA has worked closely 
with NTIA to coordinate on broadband-related matters at the national 
and regional levels and is exploring how our funding may be 
complementary.
International Trade Administration (ITA)
    ITA's U.S. Commercial Service has longstanding relationships with 
Tribal Nations and Native-owned businesses from Alaska to New Mexico 
and Oklahoma to New England through its broad program offerings that 
help these firms export their goods and services around the globe. To 
deepen its efforts, ITA recently launched a one-year pilot project in 
its Northern California Export Assistance Centers to more closely 
examine the ways to engage Native American enterprises and develop best 
practices to improve its outreach. Part of this work involved 
organizing a series of webinars this Spring designed to address 
concepts primarily around digital strategy; the idea being that the 
pandemic has resulted in a worldwide shift to online engagements by 
companies and industries across the board. ITA continues to collaborate 
with other Commerce agencies and partner with Native American 
organizations, such as the American Indian Alaska Native Tourism 
Association (AIANTA) and the Yurok Tribe Economic Development 
Corporation, to extend its outreach to these business communities and 
help them grow internationally.
Minority Business Development Agency (MBDA)
    MBDA has a long tradition of serving American Indian, Alaska Native 
and Native Hawaiian (AIANNH) business enterprises. With the expertise 
and guidance of the Office of Native American Business Development, 
MBDA redesigned the service delivery model and introduced pilot and 
demonstration projects that allowed for innovative proposals to address 
unique business challenges in the AIANNH business community. MBDA has 
funded the Office of Native American Business Development and hired a 
tribal expert appointee to engage tribal entities and Native American 
businesses, review research, and advise MBDA on upcoming AIANNH 
programs based on tribal engagement. In Fiscal Year 2020, MBDA invested 
$3.6 million across thirteen AIANNH projects that currently provide a 
range of support in Indian Country, including access to capital, 
business training, federal procurement training, broadband through 
public-private partnership, and entrepreneurial education through 
Tribal colleges. During the pandemic, some AIANNH projects were able to 
transition services to phone and other virtual consultations. The 
projects reported nearly 3,600 minority business enterprises served 
including training that specifically addressed business impacts from 
the pandemic. Several projects reported providing assistance with 
Paycheck Protection Plan loans that resulted in securing more than $2M 
in financing for AIANNH clients. In Fiscal Year 2021 MBDA plans to 
invest $3.9 million in AIANNH projects.
National Oceanic and Atmospheric Administration (NOAA)
    The Consolidated Appropriations Act, 2021 includes $30 million for 
Federally recognized tribes in any of the Nation's coastal States, 
Great Lakes States and territories for direct and indirect fishery 
economic related losses as well as subsistence, cultural and ceremonial 
impacts related to COVID-19. Specifically, ``federally recognized 
Tribes in any of the Nation's coastal States and territories, and 
federally recognized Tribes in any of the Nation's Great Lakes States 
with fisheries on the Tribe's reservation or ceded or usual and 
accustomed territory'' are potentially eligible. NOAA Fisheries held 
two national tribal consultations and is working towards releasing the 
process and application for these funds soon. In addition, Section 
12005 of the CARES Act provided $300 million to support states, tribes, 
and territories with coastal and marine fishery participants who have 
been negatively affected by COVID-19. NOAA Fisheries allocated over $6 
million to federally recognized tribes on the West coast and federally 
recognized tribes with tribally managed fisheries in Alaska in May 
2020. Tribal fishers were also able to apply for assistance from their 
state throughout the country. NOAA Fisheries held tribal consultations 
on the administration of those funds.
U.S. Census Bureau
    The Census Bureau works closely with American Indian and Alaska 
Native (AIAN) tribal nations on a government-to-government basis. Our 
goal was to complete an accurate 2020 census that includes counting 
tribal populations on and off reservations in coordination with tribal 
governments. To better address issues and achieve a more accurate count 
for 2020, we began working with tribes earlier in the decade. Since 
2015, the Bureau conducted 17 tribal consultations and one national 
webinar with federal, state recognized tribal governments and Alaska 
Native Regional and Village Corporations to discuss planning, 
operations and communications for the 2020 census.
    More than 200 tribes established a Tribal Complete Count Committee. 
These committees encouraged participation in the 2020 Census and 
informed their tribal community that the 2020 census is easy, safe and 
important. The Census Bureau also worked with organizations that 
support AIAN populations living on and off tribal lands, including the 
Alaska Federation of Natives, National Indian Education Association, 
Native American Rights Fund, National Congress of American Indians, and 
the National American Indian Housing Council.
    The Census Bureau continues communication and tribal consultations 
as we prepare for the release of the 2020 American Indian and Alaska 
Native data products. The Census Bureau is now researching the use of 
Administrative tribal data for future censuses and surveys to achieve 
the best accurate and complete count of the AIAN community.
Coronavirus Aid, Relief, and Economic Security (CARES) Act
    EDA's FY 2020 appropriations included $1.5 billion in supplemental 
funding from the CARES Act (P.L. 116-136) to respond to economic injury 
due to COVID-19. EDA's role in these recovery efforts is to facilitate 
delivery of federal economic development assistance to communities for 
long-term economic recovery planning, reconstruction, redevelopment and 
resiliency.
    Because of the unusual and compelling urgency of the economic 
dislocations caused by the coronavirus pandemic, EDA determined that 
the public interest would be best served by using a portion of its 
supplemental CARES Act funding to expeditiously make awards to existing 
high-performing EDA grant recipients with unique capacities to respond 
rapidly to the situation, including to its Economic Development 
Districts, University Centers, and 51 Tribal Planning Organizations. 
The awards fund the cost of economic recovery coordination and 
technical assistance activities to support recovery from the pandemic 
within the geographic area served by these organizations. These 
investments also helped develop a pipeline of infrastructure and 
workforce projects that EDA funded with its remaining CARES Act funds 
and will use to source projects for upcoming American Rescue Plan (ARP) 
Act (P. L. 117-2) competitions.
    Our CARES Act investments are supporting a variety of critical 
economic development strategies that are helping communities recover 
and set a course for future prosperity and, I am pleased to note that 
EDA has awarded more than $1 billion in CARES Act grants and met this 
important and significant milestone in less than one year from the 
enactment of the CARES Act. EDA's work continues and, as of April 26, 
2021, EDA has invested more than $1.1 billion in CARES Act funding 
across 1028 awards to communities across the country.
    I am proud of the fortitude shown by our grantee partners in 
responding to this crisis, particularly Native communities that were 
disproportionately impacted by the health and economic impacts of the 
pandemic; and, I am inspired by the dedication that EDA's exemplary 
staff has shown in meeting the challenge of quickly and responsibly 
awarding this critical funding.
    Below are representative examples of EDA's concerted effort in 
support of economic development and recovery in Tribal communities, 
including economic development projects that support the creative 
economy:
Native Village of Napaimute
  <bullet> In FY 2019, EDA awarded $589,000 in Economic Adjustment 
        Assistance funds to the Native Village of Napaimute for the 
        acquisition of vital equipment needed to transport harvested 
        wood products. Prior to the EDA investment, transportation has 
        been limited and movement of lumber had to occur on ice roads 
        which had become increasingly difficult to travel. 
        Alternatives, such as commercial barge service, were also 
        limited or sporadic, leaving the village with no economically 
        viable way to move its product to market. This EDA investment 
        enables the village to safely and efficiently deliver its 
        product to customers and stabilize market accessibility for its 
        wood products. In addition, the village has also been able to 
        expand its market to include the production of log home 
        packages, helping provide affordable housing to residents of an 
        economically disadvantaged area of Alaska's vast Unorganized 
        Borough.
Wampanoag Tribe of Gay Head Aquinnah (CARES Act)
  <bullet> In the wake of the COVID-19 pandemic, the Wampanoag Tribe of 
        Gay Head Aquinnah identified a need to diversify their regional 
        economy beyond tourism to sustain a resilient economy. In April 
        2021, EDA awarded $120,000 in CARES Act funds to support the 
        Tribe with preparing a wastewater feasibility study that will 
        include data collection and assessment, development of 
        alternatives, and a cost benefit analysis, to aid in 
        determining necessary upgrades and expansion work for the 
        existing wastewater treatment plant and will produce a timeline 
        for implementing the recommended economic development strategy. 
        Once completed, the project will help the region diversify the 
        existing economy, attract private investment, and advance 
        economic resiliency throughout the region.
Coquille Indian Tribe
  <bullet> In the wake of the COVID-19 pandemic, Alaska Indians and 
        Alaska Natives continue to face persistent disparities in 
        health and healthcare including high uninsured rates, barriers 
        to obtaining care, and poor health status. In FY 2020, EDA 
        awarded $1.4 million in CARES Act funds to support the Coquille 
        Indian Tribe with constructing the Ko-Kwel Wellness Center to 
        improve medical and dental services to American Indians and 
        Alaska Native (AI/AN) populations living throughout coastal 
        southern Oregon. This EDA investment will help individuals find 
        a provider, reduce wait times, and allow the community to 
        access the healthcare system without travelling long distances. 
        The new center will be located on the Kilkich Reservation, a 
        designated Opportunity Zone, to help bolster job creation, 
        attract private investment and strengthen the regional economy.
Lower Sioux Indian Community
  <bullet> In May 2018, an external Feasibility Study was completed to 
        determine the best plan for stimulating and growing the local 
        economy within the Lower Sioux Indian Community. The study 
        validated the untapped market potential for native arts in the 
        region, nationally and internationally as well as the high 
        level of artistic skills within the Lower Sioux community. In 
        FY 2018, EDA awarded $4.4 million in Public Works funds to 
        construct the Lower Sioux Intergenerational Cultural Incubator, 
        a facility with training and production space for tribal 
        entrepreneurs working in pottery, quilting, media/graphic arts, 
        culinary arts, and mixed-artistic media such as quilling, 
        beading, and regalia making. This EDA investment will broaden 
        access to workforce training and business development 
        opportunities, expanding capacity for entrepreneurship, access 
        to capital, and exports while preserving and promoting the 
        cultural heritage and cultural skill transfer and succession 
        throughout the region.
Indian Pueblo Cultural Center
  <bullet> To address an existing gap in access to economic development 
        resources in central New Mexico, in FY 2019, EDA awarded $1 
        million in Economic Adjustment Assistance funds to the Indian 
        Pueblo Cultural Center, to build a maker space in Bernalillo 
        County, to provide critical access for Native communities to 
        pursue entrepreneurial opportunities. This EDA investment will 
        help the Indian Pueblo Cultural Center serve artists and 
        entrepreneurs by providing access to cutting edge equipment, 
        skills training, and technical support in areas such as 
        woodworking, jewelry-making and graphic design so they can 
        start and grow businesses and create jobs in their community, 
        which will help drive economic growth.
Catawba Indian Nation
  <bullet> To address the challenges aligning workforce training with 
        economic opportunity in the region, in FY 2016, EDA awarded 
        $188 thousand in Local Technical Assistance funds to Catawba 
        Indian Nation, to assist in the creation of a strategic plan 
        for development of 123 acres of Tribal land in South Carolina. 
        This EDA investment supported the Catawba Indian Nation with 
        developing a plan to collect, analyze, and compile data to 
        determine the best use of the land, helped identify trends in 
        local and traded industry clusters, and provided legal insight 
        into Tribal organizational structures and partnership 
        agreements to create regional development. The project has 
        helped the Tribe have a better understanding of financing and 
        incentives associated with sovereign property to focus on 
        multifaceted film, tourism, retail/hospitality and education 
        development in the area.
Artspace Projects Inc.
  <bullet> In 2011, the Establishing a Creative Economy: Arts as an 
        Economic Engine in Native Communities study was conducted to 
        examine the Native arts economy with a focus on the Pine Ridge 
        Indian Reservation. The study was completed using data 
        collected from the 2011 American Indian Creative Economy Market 
        Study Project, which surveyed 143 Native artists to examine 
        their household economics, infrastructure needs, and social 
        networks. The study demonstrated that art is a driver of local 
        Native economies and that it is a critical component of 
        creating sustainable and vibrant communities and estimated that 
        30 percent of Native people on the Pine Ridge Reservation are 
        artists of some sort and most of them live below the poverty 
        line. In FY 2015, EDA awarded $750,000 in Public Works funds to 
        construct the Oglala Lakota Arts and Business Incubator on the 
        Pine Ridge Indian Reservation in Kyle, South Dakota. This EDA 
        investment supported the Artspace Projects Inc. with offering 
        incubator space and entrepreneur education and support 
        programming to new and emerging Oglala Lakota artisan 
        businesses and Reservation-based entrepreneurs in the area. The 
        project created a centrally located, fixed structure where 
        Native artists have access to studio space, computers for 
        digital work and electronic marketplace access, classroom and 
        gallery space, and a hub to establish connections with other 
        arts and cultural activities across the geographically vast 
        reservation. Additionally, the project has helped establish 
        connections with other arts and cultural activities and 
        institutions on the Reservation and in Western South Dakota, 
        which will be a catalyst for business acceleration throughout 
        the region, promoting economic diversification, resiliency, and 
        opportunities for job creation.
Northern Arizona University
  <bullet> Due to the COVID-19 pandemic, a supply chain breakdown 
        occurred in Flagstaff, Arizona and food/supplies were limited 
        within the local Tribal Community. In March 2021, EDA awarded 
        $182,522 in CARES Act funds to the Arizona Board of Regents on 
        behalf of Northern Arizona University, to develop and implement 
        a Diversification Strategy to concentrate on four areas: Green 
        House Development Plan, Food Cooperative Initiative, Farm-to-
        School Program and Food Security/Supply Chain study. This EDA 
        investment is designed to help increase underserved White 
        Mountain Apache communities' access to healthy, affordable, and 
        locally sourced food. In addition, the project will provide 
        technical assistance to support food enterprise development, 
        business strategy, and supply chain components of the food 
        system to get more healthy food into the Tribal communities 
        with limited access, focusing on local and regional sourcing. 
        Once implemented, the project will create jobs, provide 
        economic incentives to Apache farmers and ranchers, preserve 
        Apache traditions and cultural lifeways and increase long-term 
        economic sustainability, which will strengthen the regional 
        economy and advance economic resiliency throughout the region.
Future Work To Support Tribal Partners
    While we are proud of the work we have already accomplished under 
CARES Act to support our Tribal partners, we are also aware the 
pandemic has caused, and will continue to cause, deep economic injury 
to indigenous communities in devastating and unprecedented ways.
    On March 11, President Joseph Biden signed the American Rescue Plan 
into law. This historic and sweeping legislation provides additional 
relief to address the continued impact of the COVID-19 pandemic on the 
economy, public health, State and local governments, individuals, and 
businesses. The ARP allocates supplemental funding of $3 billion to EDA 
to assist communities nationwide, including our Tribal partners, in 
advancing their coronavirus recovery and resiliency strategies.
    Though EDA is still finalizing its implementation plan for this 
funding, the execution will focus on: (1) bringing back the American 
workforce and industries that have been hardest hit, such as travel and 
tourism and manufacturing, through programs that support economic 
growth and diversification, creating talent pipelines to address 
industry needs, and fostering higher-skill, higher-wage job 
opportunities for all; (2) capitalizing on American ingenuity to build 
regions of the future by focusing on innovation-led economic 
development, including planning, infrastructure, workforce development, 
and business financing; and (3) pursuing a comprehensive approach to 
advancing equity by focusing on populations and underserved communities 
that have been denied a full opportunity to participate in aspects of 
economic prosperity, including Tribal entities.
    To guide not only our ARP portfolio, but all EDA program funding, 
we've established new EDA Investment Priorities. Notably, `Equity' has 
been added to the top of the investment priority list. EDA is committed 
to working with populations and underserved communities, including 
Tribal partners, that have been denied a full opportunity to 
participate in aspects of economic prosperity in the past.
    Just last month, EDA also conducted two Tribal Consultations with 
Tribal Leaders from across the country. The purpose of these 
consultations was to seek feedback on a proposed regulatory change that 
would broaden EDA's tribal eligibility to include for-profit 
organizations, which are wholly owned by and established for the 
benefit of the Tribe, which is currently prohibited by EDA regulation. 
The goal of this change is to potentially make EDA's development 
assistance more accessible to a wider range of Tribal entities as means 
to support long-term economic development through more communities.
Conclusion
    As we seek to recover from the devastating impacts of the pandemic, 
partnership, collaboration and fulfilling the federal trust 
responsibilities and treaty obligations to Tribal Nations has never 
been more important. As EDA grows in budget and size, we are further 
entrusted to take on a greater and more prominent role in supporting 
communities recovering from sudden economic disruption and dislocation. 
We are aware of our important role in ensuring the funds entrusted to 
us are invested in an equitable, fair and impactful manner and that we 
are reaching the communities most in need of our assistance. I look 
forward to answering any questions you may have.

    The Chairman. Thank you very much, Mr. Alvord.
    Next we have Anthony Rodman, Acting Director of the Office 
of Indian Economic Development at the Department of Interior.

         STATEMENT OF ANTHONY RODMAN, ACTING DIRECTOR, 
          OFFICE OF INDIAN ECONOMIC DEVELOPMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Rodman. Good afternoon, Chairman Schatz, Vice Chair 
Murkowski, and members of the Committee. Thank you for the 
invitation to appear on behalf of Indian Affairs at the 
Department of Interior to discuss COVID-19 impacts on Native 
tourism.
    My name is Anthony Rodman, and I am Cherokee of Osage from 
Oklahoma, and I am currently in Oklahoma within the boundaries 
of the Cherokee Nation. For the past two years, I have been 
serving as the Acting Director of the Office of Indian Economic 
Development, which is one of the offices that supports the 
implementation of the Native American Tourism and Improving 
Visitor Experience Act, otherwise known as the NATIVE Act.
    Never has the goal of the NATIVE Act been more timely than 
it is now. COVID-19 has rattled the foundations of tribal 
economies over the past year and one of the hardest-hit sectors 
has been the tribal tourism industry. Under normal 
circumstances, tribal tourism is a multi-billion dollar 
industry and a prime space for tribal economic development. 
However, from the beginning of March 2020 to the end of 2020, 
the U.S. Travel Association has estimated $492 billion in total 
losses for the U.S. travel economy. In planning for the return 
of tourism, Indian Affairs seeks to leverage every aspect of 
the NATIVE Act.
    The NATIVE Act encourages full participation of tribes, 
tribal organizations and Native Hawaiian organizations in the 
tourism industry by, one, integrating and accounting for Native 
American equities in Federal agencies' tourism programs; two, 
providing grants, loans, and technical assistance to tribes, 
tribal organizations, and Native Hawaiian organizations to spur 
economic development through tourism.
    Indian Affairs has implemented the NATIVE Act through a 
national, regional, and local approach, offering technical 
assistance to tribes through universities and non-profits with 
backgrounds in tribal tourism. These universities and non-
profits have focused on developing an enabling environment that 
cultivates long-term businesses and strategic development for 
tribal tourism.
    The model for the regional tourism efforts in North and 
South Dakota, Montana, and Virginia, is able to be replicated 
for other areas of the Country. North Dakota in particular is a 
great example of how the work of the NATIVE Act is paying off. 
An organized tourism alliance has developed with all the tribes 
in North Dakota, and after two years of work, this organization 
will be testing tour packages as the tribes start to reopen 
this year with full operations expected next year.
    Indian Affairs' cooperative agreement with the American 
Indian and Alaska Native Tourism Association, otherwise known 
as AIANTA, seeks to address some of the national concerns and 
issues facing Native American tourism. AIANTA has conducted 
national tourism trainings and seminars with tribes, tribal 
organizations and Native Hawaiian organizations. Indian Affairs 
will be working with AIANTA over the next few weeks to finalize 
AIANTA's budget for activities justified by the NATIVE Act.
    The American Rescue Plan also benefits tribal tourism due 
to its focus on infrastructure. Inadequate infrastructure is 
the biggest barrier to robust economic development in Indian 
Country. This includes tourism. As it is often said in the 
tourism industry, a nice place to visit is a nice place to 
live. In other words, good roads, clean water and sanitation, 
energy transmission, broadband, public safety, workforce 
development and other key components of good infrastructure 
create an enabling environment for tourism and economic 
development.
    Looking ahead, Indian Affairs will be announcing in the 
next few weeks its new tribal tourism grant program, which is a 
competitive grant for tribes funding feasibility studies and 
business plans for tourism proposals. Indian Affairs is also 
collaborating with the Office of Native Hawaiian Relations at 
DOI to award grants to Native Hawaiian organizations to conduct 
feasibility studies and business plans for tourism projects 
benefitting the Native Hawaiian community.
    Indian Affairs will also announce financial support for 
tribes to perform infrastructure and/or workforce development 
needs assessments for tourism-related economic development. 
Regarding interagency coordination in tourism efforts, Indian 
Affairs will leverage the new reformed White House Council on 
Native American Affairs. Lastly, Indian Affairs is working on 
submitting a repot to Congress soon, as mandated by the NATIVE 
Act.
    Tribal tourism continues to face one of its greatest 
challenges with the COVID-19 pandemic. The team at Indian 
Affairs and the Department of Interior is committed to working 
with Native American, Alaska Native, and Native Hawaiian 
organizations on achieving a prosperous and resilient 
indigenous tourism economy once again.
    Thank you, Chairman Schatz, Vice Chair Murkowski, and 
members of the Committee. I look forward to answering your 
questions.
    [The prepared statement of Mr. Rodman follows:]

Prepared Statement of Anthony Rodman, Acting Director, Office of Indian 
         Economic Development, U.S. Department of the Interior
    Good afternoon Chairman Schatz, Vice Chair Murkowski, and Members 
of the Committee. Thank you for the invitation to appear on behalf of 
Indian Affairs at the Department of Interior. I appreciate the 
opportunity to discuss COVID-19 impacts on Native tourism.
    COVID-19 has rattled the foundations of Tribal economies over the 
past year--and one of the hardest hit sectors has been the Tribal 
tourism industry. While the extent of the economic damage is still 
being quantified, every tourism project funded by Indian Affairs has 
reported significant challenges over the past year. Many Reservations 
were closed to visitors, travel stopped, and tribal offices were shut 
down for extended periods of time. As the country focused on the 
immediate health and safety concerns of the COVID-19 pandemic--a 
pandemic with a disproportionate impact in Indian Country--Tribal 
economies and, specifically, the Tribal tourism industry were hit hard.
    Tribal tourism is a multi-billion dollar industry and a prime space 
for Tribal economic development that has steadily increased over the 
last decade. In 2012, Tribal businesses reported over $38.8 billion 
dollars in receipts. \1\ In 2016, approximately 1.96 million oversea 
travelers visited Indian Country, which resulted in 41,000 new U.S. 
jobs. \2\ While the pandemic has significantly slowed this economic 
momentum, Native American, Alaska Native, Native Hawaiian tourism 
entities and Indian Affairs are striving to quickly recharge the Tribal 
tourism sector.
---------------------------------------------------------------------------
    \1\  https://www.census.gov/newsroom/blogs/random-samplings/2016/
08/american-indian-and-alaska-native-owned-businesses-move-past-the-
quarter-million-mark.html
    \2\  https://www.aianta.org/resources/economic-impact/
---------------------------------------------------------------------------
    In planning for the return of increased tourism, Indian Affairs has 
worked with awardees of cooperative agreements and contracts to pivot 
and focus on opportunities for virtual tourism and distance training 
for Tribal staff, capacity building for Tribes' tourism departments and 
offices, and alliance building among industry organizations, state, and 
local tourism departments. George Washington University International 
Institute of Tourism Studies and the Pamplin College of Business at the 
Virginia Polytechnic Institute and State University have led trainings 
with Native cultural entrepreneurs from South Dakota, North Dakota, and 
Montana to develop and launch live online tourism experiences on 
platforms such as Airbnb and Eventbrite. Some of these Native 
entrepreneurs have then hosted online virtual classes with paying 
participants to learn about cultural activities like Native fashion and 
star quilt making. \3\
---------------------------------------------------------------------------
    \3\ https://tribalbusinessnews.com/sections/arts-and-culture/13337-
indigenous-entrepreneurs-experiment-with-airbnb-online-
experiences?fbclid=IwAR0NtzSvaJN5RXPH8plceYmRbMOlkKP3tcuXUlwz_pyD6acQ-
GzJJO-_Fmo
---------------------------------------------------------------------------
    Indian Affairs is prepared to leverage the resources provided by 
the Native American Tourism and Improving Visitor Experience (NATIVE) 
Act to support indigenous tourism. This will include a focus on inter-
agency coordination to ensure strategic and culturally appropriate 
federal investments for Tribal tourism.
Indian Affairs NATIVE Act Implementation
    Since the passage of the NATIVE Act in 2016, the subsequent 
appropriations starting in FY 2018, and every fiscal year since, Indian 
Affairs has sought to build tribal tourism capacity through a national, 
regional, and local approach. \4\ This includes cooperative agreements, 
grants, and contracts with universities and non-profit organizations.
---------------------------------------------------------------------------
    \4\  https://www.bia.gov/information-detail/current-indigenous-
tourism-projects
---------------------------------------------------------------------------
    The Office of Indian Economic Development--Indian Affairs (OIED-IA) 
received $3.4M in appropriations for FY 2018, FY 2019, and FY 2020, and 
$500,000 in FY 2021. The Division of Transportation (DOT) in the Office 
of Indian Services (OIS)--Indian Affairs received $1M for FY 2018, FY 
2019, FY 2020, and FY 2021. Through these combined appropriations, 
Indian Affairs has provided technical assistance, promoted capacity-
building, strategic development, and fostered inter-tribal, 
agricultural, and cultural tourism opportunities.

         Technical Assistance: Technical assistance for Tribes, Tribal 
        organizations, and Native Hawaiians to promote full 
        participation in the tourism industry is provided pursuant to a 
        performance-based cooperative agreement with the American 
        Indian Alaska Native Tourism Association (AIANTA). This work 
        focuses on identifying and accessing federal programs that 
        support tribal capacity building.

         Capacity-Building and Strategic Development: Capacity-
        building, strategic development and planning are promoted, and 
        subject-matter expertise on tourism are strengthened with 
        tribes in South Dakota and North Dakota pursuant to a contract 
        with George Washington University. These activities have 
        focused on strengthening the North Dakota Native Tourism 
        Alliance (NDNTA) as a regional tourism organization; developing 
        tourism products and experiences around main events at several 
        Tribal locations in North Dakota; establishing the South Dakota 
        Native Tourism Network (SDNTN), which includes all nine of the 
        state's federally recognized tribes; and developing a regional 
        native tourism plan for South Dakota.

         Inter-Tribal Tourism: Inter-tribal tourism in Montana and 
        Virginia is fostered through a cooperative agreement with 
        Virginia Polytechnic Institute and State University (Virginia 
        Tech). These activities support the Montana Tribal Tourism 
        Development Project, which is working to promote strategic, 
        culturally appropriate, sustainable tourism development in 
        Montana's eight tribal communities, and the Virginia Tribal 
        Tourism Development Project which is assessing tourism 
        potential with respect to the Virginia Tribes that have 
        recently been federally recognized. These projects will 
        identify the Tribes' tourism assets, provide guidance on their 
        best use, and build human capital to increase visitation.

         Agricultural-Tourism: Agricultural-tourism and food-based 
        visitation is promoted through a cooperative agreement with the 
        Taos Community Economic Development Corporation (TCEDC). 
        Through this agreement Tribal staff are trained on how farmers' 
        markets, restaurants and catering companies operated by Native 
        growers and entrepreneurs can attract and serve visitors and 
        boost Tribal employment; in conjunction with the U.S. 
        Department of Agriculture, classes on produce farming, 
        commercial kitchen and food pantry operation, and use of 
        portable slaughter facilities are offered to Tribal members 
        from Virginia, Montana, North Dakota, and South Dakota; and 
        Virginia Tribal members are trained on leasing farms and 
        operating farm stands and farmers' markets as part of the 
        tourism experience.

         Cultural-Tourism: Tourism centered on the Navajo Nation's 
        sheep and woolen culture is developed through a cooperative 
        agreement with a Native vendor in Navajo Nation.
Indian Affairs Native Tourism Priorities Moving Forward
    In addition to continuing the projects described above, Indian 
Affairs is committed to implementing its plans to focus on Tribal 
economic recovery through a number of efforts.
    First, through the new Tribal Tourism Grant Program, a competitive 
grant for Native American and Alaska Native Tribes, Indian Affairs will 
fund 20-30 feasibility studies and business plans for Tribal tourism 
proposals. Feasibility studies and business can be a gateway to 
accessing capital for projects.
    Second, Indian Affairs will enter into an agreement with the Office 
of Native Hawaiian Relations at the Department of Interior to award 
grants to Native Hawaiian Organizations to conduct feasibility studies 
and business plans for tourism projects benefiting the Native Hawaiian 
community.
    Third, Indian Affairs will announce a new round of competitive 
grants for Tribes to perform infrastructure and/or workforce 
development needs assessments for tourism-related economic development. 
These studies will help identify gaps in infrastructure or workforce 
capacity helping to determine priorities, allocate resources and make 
organizational improvements in support of tourism and economic 
development. This will help inform the Federal Government on how to 
better support tourism development in Indigenous communities in 
coordination with other transportation and economic development 
programs.
    Fourth, Indian Affairs will leverage the newly reformed White House 
Council on Native American Affairs to improve inter-agency coordination 
to support Tribal tourism between the Department of Transportation, 
Department of Commerce, Department of Energy, Department of Health and 
Human Services, and the Small Business Administration to focuses on 
economic development, energy, and infrastructure.
    Finally, Indian Affairs will make the Office of Indian Economic 
Development the center of its efforts to support Tribal tourism to 
ensure greater efficiencies and to give Tribes one place to go for 
NATIVE Act and tourism questions.
Conclusion
    Native American, Alaska Native, and Native Hawaiian cultures cannot 
be replicated. They are unique and dynamic, full of life and 
complexity. The NATIVE Act recognizes, as does Indian Affairs, the need 
for Tribes to tell their stories and share their cultures on their own 
terms. Tribal tourism continues to face one of its greatest challenges 
with the COVID-19 pandemic. The team at Indian Affairs and the whole of 
the Department of Interior is committed to working with Native 
American, Alaska Native, and Native Hawaiian organizations on achieving 
a prosperous and resilient Indigenous tourism economy once again.
    Chairman Schatz, Vice Chairman Murkowski, and Members of the 
Committee, thank you again for the invitation to appear today. I look 
forward to answering your questions and our continued partnership 
strengthening the Indigenous tourism industry for Tribes, Alaska Native 
and Native Hawaiians organizations. Thank you again for your 
leadership.

    The Chairman. Thank you very much.
    It is now my pleasure and honor to introduce my friend, 
John De Fries, the President and CEO of the Hawaii Tourism 
Authority.

   STATEMENT OF JOHN DE FRIES, PRESIDENT/CEO, HAWAII TOURISM 
                           AUTHORITY

    Mr. De Fries. My apologies to the Committee for violating 
the deadline for submittal which totally falls in my lap 
because of my misunderstanding of the deadline itself. So for 
that, I apologize.
    Aloha, Mr. Chair, Madame Vice Chair and honorable members 
of the Committee. In the world of the Native Hawaiian, all life 
forms and living systems are interconnected and interrelated, 
be it the earth and sky, oceans and forests, flora and fauna, 
our ancestors and descendants, be it the people within our 
communities and/or peoples we host from around the world.
    We are islanders who can source our genealogical origins to 
the cosmos and to the molten core of Planet Earth. We are 
Native Hawaiian. And, while Hawaii may be the single-most 
isolated land mass on our planet, we are connected to all other 
islands and continents by Moananuiakeaor, the vast ocean that 
surrounds us.
    For these reasons we appreciate the opportunity presented 
by this Committee to look back at the effects of the past year 
for lessons that will guide us forward into the next century, 
where future pandemics may arise along with the daunting 
challenges related to climate change, sea level rise, 
environmental pollution, and population growth, just to name a 
few.
    Charged with the mission of managing Hawaii tourism in a 
sustainable manner, the Board of Directors of the Hawaii 
Tourism Authority adopted a new strategic plan in January 2020, 
pre-pandemic, that is comprised of four pillars. Number one, 
natural resources; two, Hawaiian culture; three, community; and 
four, brand marketing. Relative to the pandemic and its 
lingering effects, this strategic plan, with its heightened 
awareness and comprehensive approach, is serving as a critical 
foundation upon which to rebuild Hawaii's economic recovery 
with the tourism industry as the lead driver and a potent 
catalyst for economic diversification
    Additionally, we bear the responsibility of collaborating 
with leaders in multiple communities in resolving specific 
hotspot locations throughout our State, where consistent 
overcrowding is occurring in the absence of appropriate public 
policy and effective management systems.
    In the four years that preceded the COVID-19 pandemic, an 
annual average of 48,682 Native Hawaiians worked in the 
tourism-intensive industries per year, accounted for 19.8 
percent of the total workers in these industries, and 36.5 
percent of the Native Hawaiian workers in all industries. The 
top five occupations for Native Hawaiian workers in the tourism 
sector were in sales, transportation and material moving, food 
preparation and serving, office administration, and management.
    While the exact number of Native Hawaiians who were forced 
into unemployment due to the pandemic are not available; a fair 
estimate would be in the range of 30,000 to 35,000. Restoring 
employment opportunities within our visitor industry is a 
priority for us at HTA.
    However, when we use the term and/or classification of 
Native Hawaiian, we are referencing a place as much as we are 
describing a people. During the past year of the pandemic, we 
were reminded of Hawaii's distinct competitive advantage as a 
world-class center of learning and a place of discovery and 
rediscovery, with emphasis in the following fields of study: 
earth, ocean, and atmospheric sciences; indigenous knowledge 
and traditional practices; renewable energy and sustainable 
technologies; conflict resolution, civility, compassion, and 
the making of peace; conservation, sustainability, health, and 
well-being; astronomy, geology, volcanology, forestry, and 
botany; Hawaiian culture, multicultural diversity, and cross-
cultural exchange.
    Across the spectrum of these specific disciplines, there is 
an array of public-private partnerships and associations at 
work in Hawaii, with Native Hawaiian leaders at the forefront 
who are aligned with the global agenda put forth by the United 
Nations and other international organizations who seek a 
sustainable future for all of humanity. As we look forward to 
the continued economic recovery and tourism's role within it, 
we are working to ensure Native communities and our indigenous 
ways of knowing are not left behind and forgotten
    We have arrived at a crossroads where we must work to 
ensure that Native Hawaiians are leading Hawaii's tourism 
recovery and reimagination, one that is predicated on ancestral 
wisdom and utilizes modern technology to create a regenerative 
tourism model that will empower Native Hawaiians and all 
peoples of Hawaii to prosper and thrive.
    Thank you, Mr. Chairman, for this opportunity, and I look 
forward to answering questions.
    [The prepared statement of Mr. De Fries follows:]

  Prepared Statement of John De Fries, President/CEO, Hawaii Tourism 
                               Authority
    Aloha Mr. Chairman, Madame Vice Chair and Honorable Members of this 
Committee:
    In the world of the Native Hawaiian, all life forms and living 
systems are inter-connected and inter-related; be it the earth and sky, 
oceans and forests, flora and fauna, our ancestors, and descendants, be 
it the people within our communities and/or peoples we host from around 
the world. We are islanders who can source our genealogical origins to 
the cosmos and to the molten core of Planet Earth. We are Native 
Hawaiian.
    And, while Hawaii may be the single-most isolated land mass on our 
planet, we are connected to all other islands and continents by 
Moananuiakea or, the vast ocean that surrounds us. For these reasons we 
appreciate the opportunity presented by this committee, to look back at 
the affects of the past year, for lessons that will guide us forward 
into the next century; where future pandemics may arise, along with the 
daunting challenges related to climate change, sea level rise, 
environmental pollution, and population growth--to name a few.
    Charged with the mission of managing Hawaii tourism in a 
sustainable manner, the Board of Directors of the Hawaii Tourism 
Authority adopted a new strategic plan in January 2020 (pre-pandemic) 
that is comprised of four pillars: (1) Natural Resources; (2) Hawaiian 
Culture; (3) Community; (4) Brand Marketing. Relative to the pandemic 
and its lingering effects, this strategic plan--with its heightened 
awareness and comprehensive approach, is serving as a critical 
foundation upon which to rebuild Hawaii's economic recovery with the 
tourism industry as the lead driver and a potent catalyst for economic 
diversification.
    Additionally, we bear the responsibility of collaborating with 
leaders in multiple communities in resolving specific ``hotspot-
locations'' throughout our State, where consistent overcrowding is 
occurring in the absence of appropriate public policy and effective 
management systems.
    In the four years that preceded the COVID-19 pandemic, an annual 
average of 48,682 Native Hawaiians worked in the tourism intensive 
industries per year, accounted for 19.8 percent of the total workers in 
these industries, and 36.5 percent of the Native Hawaiian workers in 
all the industries. The top five occupations for Native Hawaiian 
workers in the tourism sector were sales, transportation and material 
moving, food preparation and serving, office administration, and 
management. While the exact number of Native Hawaiians who were forced 
into unemployment due to the pandemic are not available; a fair 
estimate would be in the range of 30,000-35,000. Restoring employment 
opportunities within our visitor industry is a priority.
    However, when we use the term and/or classification of ``Native 
Hawaiian'', we are referencing a place as much as we are describing a 
people. During this past year of the pandemic, we were reminded of 
Hawaii's distinct competitive advantage as a world-class center of 
learning and a place of discovery and rediscovery; with emphasis in the 
following fields of study:

  <bullet>  Earth, ocean, and atmospheric sciences

  <bullet>  Indigenous knowledge and traditional practices

  <bullet>  Renewable energy and sustainable technologies

  <bullet>  Conflict-resolution, civility, compassion, and peace

  <bullet>  Conservation, sustainability, health, and well-being

  <bullet>  Astronomy, geology, volcanology, forestry, and botany

  <bullet>  Hawaiian culture, multicultural diversity, and cross-
        cultural exchange

    Across the spectrum of these specific disciplines, there is an 
array of public-private partnerships and associations at work in 
Hawaii; with Native Hawaiian leaders at the forefront, who are aligned 
with the global agenda put forth by the United Nations and other 
international organizations who seek a sustainable future for all of 
humanity.
    As we look forward to the continued economic recovery and tourism's 
role within it, we are working to ensure Native communities and our 
indigenous ways of knowing are not left behind and forgotten. We have 
arrived at a crossroads where we must work to ensure that Native 
Hawaiians are leading Hawaii's tourism recovery and reimagination. One 
that is predicated on ancestral wisdom and utilizes modern technology 
to create a regenerative tourism model that will empower Native 
Hawaiians and all peoples of Hawaii to prosper and thrive.

    Appendix

    According to the Hawai`i Department of Business, Economic 
Development and Tourism's Native Hawaiians in Hawai`i's Tourism 
Sector--2021 Update, published in January 2021:

  <bullet>  ``Between 2015 and 2019, an average of 48,682 Native 
        Hawaiians worked in the tourism intensive industries per year, 
        accounted for 19.8 percent of the total workers in these 
        industries.''

  <bullet>  ``The top five occupations for Native Hawaiian workers in 
        the tourism sector were sales, transportation and material 
        moving, food preparation and serving, office administration, 
        and management.''

  <bullet>  ``Compared with all the employees in the tourism intensive 
        industries, Native Hawaiian workers were generally younger, 
        more single, more with a high school diploma (but less with 
        bachelor's degree or higher), and the average wage was lower 
        than the state level for these industries.''

    The initial Native Hawaiians in Hawai`i's Tourism Sector report was 
published in April 2017, and it stated:

  <bullet>  ``Between 2011 and 2015, an average of 37,386 Native 
        Hawaiians worked in the tourism intensive industries per year, 
        accounted for 16 percent of the total workers in those 
        industries.''

  <bullet>  ``The top five occupations for Native Hawaiian workers in 
        the tourism sector were sales, office administration, food 
        preparation, transportation, and building maintenance.''

  <bullet>  ``Compared with all the employees in the tourism intensive 
        industries, Native Hawaiians workers were generally younger, 
        more females, more singles, more with high school diploma, but 
        less with bachelor's degree or higher, and the average wage was 
        lower than the state level for these industries.''

    According to the U.S. Census Bureau, Hawai`i's resident population 
was 1,415,872 as of July 1, 2019, with 10.1 percent identifying as 
Native Hawaiian or Other Pacific Islander (NHPI). When broken down by 
county, 12.8 percent identified as NHPI in Hawai`i County, 10.6 percent 
in Maui County, 9.6 percent in Honolulu County, and 9.1 percent in 
Kaua`i County. (*Demographic data from the 2020 Census is not available 
yet.)
    Additional information:

HTA's Strategic Plan 2020-2025
    At the start of 2020, HTA introduced a strategic plan to guide our 
vision and our responsibilities in support of Hawai`i tourism through 
2025. HTA has been reorganized around four interacting ``Pillars'' 
(Natural Resources, Hawaiian Culture, Community, and Brand Marketing) 
supported by research and other administrative functions. This plan 
establishes a general goal for each Pillar. 
www.hawaiitourismauthority.org/media/4286/hta-strategic-plan-2020-
2025.pdf
Destination Management Action Plans (DMAP)
    The purpose of the DMAPs is to rebuild, redefine and reset 
tourism's direction over a three-year period through a collaborative 
process. It's a way to engage Hawai`i's visitor industry, communities, 
and other sectors, while identifying areas of need that require 
management for proactive mitigation planning.
Kaua`i DMAP
    www.hawaiitourismauthority.org/media/6771/hta-kauai-dmap.pdf
Maui Nui DMAP
    www.hawaiitourismauthority.org/media/6860/hta-maui-action-plan.pdf
Hawai`i Island DMAP
    https://www.hawaiitourismauthority.org/media/7040/hta-hawaii-
island-action-plan.pdf

    *O`ahu's DMAP process is still underway.
Hawai`i Green Growth and the Aloha+ Challenge
    The Aloha+ Challenge builds on island culture and values and is 
Hawai`i's locally-driven framework to implement the United Nations 2030 
Sustainable Development Goals. HTA is working to promote visitor 
industry alignment with the Aloha+ Challenge. www.hawaiigreengrowth.org
`Aina Aloha Economic Futures
    The HTA Board of Directors adopted the `Aina Aloha Economic Futures 
declaration during its board meeting in June 2020. The initiative is 
made up of guiding principles and a community engagement process that 
integrates Native Hawaiian values into Hawai`i's economic recovery. 
www.ainaalohafutures.com
DBEDT's Native Hawaiian Entrepreneurs report
    https://files.hawaii.gov/dbedt/economic/reports/
Hawaii_Native_Hawaiian_Entrepreneurs.pdf
DBEDT's Native Hawaiian-Owned Firms in Hawai`i's Tourism Sector report
    https://files.hawaii.gov/dbedt/economic/reports/
Native_Hawaiian_Owned_Business_in_Tourism.pdf

    The Chairman. Thank you, Mr. De Fries.
    Next we have Sherry Rupert, CEO of American Indian Alaska 
Native Tourism Association.

STATEMENT OF SHERRY RUPERT, CEO, AMERICAN INDIAN ALASKA NATIVE 
                      TOURISM ASSOCIATION

    Ms. Rupert. Chairman Schatz, Vice Chairwoman Murkowski, and 
members of the Committee, thank you for the opportunity to 
provide testimony on behalf of the American Indian Alaska 
Native Tourism Association, or AIANTA.
    I am the CEO of AIANTA, and I am a proud Paiute and Washoe, 
born and raised in Nevada. Prior to becoming CEO of AIANTA, I 
was the executive director of the State of Nevada's Indian 
Commission. AIANTA is a tribally-led, national non-profit 
headquartered in Albuquerque, New Mexico, and is the only 
organization specifically dedicated to advancing cultural 
tourism in Native nations and communities across the United 
States. AIANTA is the organization that has been designated to 
serve as a facilitator as named in the NATIVE Act.
    Prior to COVID-19, tourism was a leading opportunity for 
jobs and economic development in Native nations and 
communities. In some rural communities, it is the only viable 
opportunities for household income. According to the Department 
of Commerce, in 2019, approximately 1.9 million overseas 
visitors traveled to an American Indian Community. The economic 
devastation caused by the pandemic cannot be understated.
    According to the U.S. Travel Association, the pandemic has 
impacted travel economies in every State and territory, with 
Hawaii suffering the most of any State, with visitor spending 
declining by 60 percent in year to year comparisons. Just to 
put this into perspective, in 11 States represented by the 
members of this Committee, the impact of COVID-19, travel 
restrictions and closures, has resulted in nearly $69 billion 
in lost visitor spending, and nearly $8 billion lost in tax 
revenue.
    The Cherokee Nation, the largest tribal nation in the 
United States, with more than 390,000 citizens, has an annual 
economic impact of more than $2.2 billion and serves as one of 
the largest employers in northeastern Oklahoma, with nearly 
11,500 employees. The COVID-19 pandemic has reinforced the 
importance and need for tribal communities to have reliable 
high-speed internet to support tele-medicine, culture, tourism, 
and language initiatives.
    According to the National Indian Gaming Association, nearly 
every one of the 524 Native American casinos closed last year, 
resulting in a loss of 296,000 jobs and $1.5 billion in lost 
gaming revenue. COVID-19 restrictions have had a dramatic and 
far-reaching effect, crippling Native American economies well 
beyond tourism, devastating programs such as health and safety, 
infrastructure, education, and food programs.
    More critically, programs not considered essential, 
including cultural heritage activities, museums, cultural 
centers, language programs, events, and even sacred observances 
came to a halt in 2020 as resources were channeled into 
programs considered more critical. Tribal museums and cultural 
centers also closed last year. These facilities create jobs and 
generate revenue for local communities, serving to perpetuate 
indigenous cultures, which were already in jeopardy of being 
permanently lost prior to the pandemic.
    In Albuquerque, New Mexico alone, one of the largest 
powwows, the Gathering of Nations, was canceled in 2020. The 
Gathering of Nations powwow is a huge source of revenue, with 
an economic impact of $22 million annually. The cancellation of 
this powwow and all powwows across the Nation resulted in 
significant lost visitor spending, impacting hotels, 
restaurants and businesses.
    We encourage you to support investments in tourism 
infrastructure, training, marketing and program development for 
Native nations and communities. We encourage you to support 
full implementation of the NATIVE Act.
    AIANTA appreciates this Committee's support and hard work 
to address the impact of COVID-19. We stand ready to help this 
Committee ensure that tourism and economies of Native 
Hawaiians, Alaska Natives and American Indians are strengthened 
and enhanced through these critical Federal investments.
    This concludes my remarks today, and I want to thank you, 
Chairman Schatz, Vice Chair Murkowski, and members of the 
Committee. I am happy to answer any questions.
    [The prepared statement of Ms. Rupert follows:]

Prepared Statement of Sherry Rupert, CEO, American Indian Alaska Native 
                          Tourism Association
    Chairman Schatz, Vice-Chairwoman Murkowski and members of the 
committee, thank you for the opportunity to provide testimony on behalf 
of the American Indian Alaska Native Tourism Association, Inc. 
(AIANTA). This testimony will focus on the devastating impact we are 
facing from COVID-19 and to encourage you to support FY2022 funding 
needs for American Indians, Alaska Natives and Native Hawaiians engaged 
in tourism. We also encourage you to support full implementation of the 
Native American Tourism and Improving Visitor Experience (NATIVE) Act.
    Prior to COVID-19, tourism was a leading opportunity for jobs and 
economic development in Indian Country. In some rural and remote 
communities, it is one of the only viable opportunities for household 
income. According to U.S. Department of Commerce, approximately 1.9 
million overseas visitors traveled to an American Indian Community in 
2019. These visitors are good for the Native Nations and communities 
they visit and for the entire tourism economy because they stay longer 
in the U.S. than the average overseas traveler and visit more 
destinations (2019 U.S. Travel and Tourism Statistics, National Travel 
and Tourism Office, U.S. Dept of Commerce). As we emerge from the 
devastating impact of COVID-19, tourism to American Indian, Alaska 
Native and Native Hawaiian tourism destinations has a bright future 
that lies in the more than one billion leisure travelers in the world, 
and the interest of domestic travelers and international visitors in 
the American Native cultures and what their communities offer--
memorable and unique experiences, warm hospitality and unusual 
landscapes.
    AIANTA is the only organization specifically dedicated to advancing 
Indian Country tourism across the United States. AIANTA helps tribes 
develop, sustain and grow tourism destinations through technical 
assistance, training, experiential learning opportunities and 
resources. Our mission is to define, introduce, grow and sustain 
American Indian, Alaska Native and Native Hawaiian Tourism that honors 
traditions and values.
COVID-19
    The economic devastation caused by the pandemic cannot be 
understated. According to the U.S. Travel Association, the pandemic has 
impacted travel economies in every state and territory, with Hawai'i 
suffering the most of any state (-60 percent y/y). In Alaska, with the 
cancellation of the 2020/2021 cruise ship season, the losses are 
impacting the entire state, including Native Alaskans along the 
panhandle forced to shutter cultural tourism operations decreasing much 
needed revenue and jobs for the region and for the State's economy. The 
impact is estimated at $3 billion in gross product loss for each year 
the cruise season is not in operation. (Office of Governor Mike 
Dunleavy, Report to White House: Alaska Economy Devastated by CDC 
Decision on Cruise Ships, April 8, 2021)
    Further, from March-December 2020, the pandemic resulted in $492 
billion in cumulative losses for the U.S. travel economy, equating to a 
daily loss of approximately $1.6 billion for the past 10 months. These 
losses also represent $64 billion lost in federal, state, and local tax 
revenue since March 1, 2020.
    In general, the travel and tourism industry in the United States 
generated more than $1.87 trillion in economic impact in 2019, 
according to the U.S. Travel Association. Additionally, tourism 
supports 9.2 million direct U.S. jobs and accounts for 2.8 percent of 
the entire U.S. GDP.
    During the COVID-19 pandemic, two thirds of all U.S. jobs lost were 
supported by travel, also according to the U.S. Travel Association. In 
particular, the franchise lodging sector, a model frequently used by 
Indian Country hoteliers, lost more than 200,000 jobs last year.
    Research commissioned in early 2020 by the National Indian Gaming 
Association found that nearly every one of the 524 Native American 
casinos closed last year, resulting in a loss of 296,000 jobs and $1.5 
billion in lost gaming revenue.
    These lost jobs and decimated gaming revenues have had a dramatic 
and far-reaching affect, crippling Native American economies well 
beyond tourism, in return devastating programs such as health and 
safety, infrastructure, education and food programs across Indian 
Country.
    More critically, programs not considered essential or lifesaving, 
such as cultural heritage activities, museums and cultural centers, 
language programs, cultural events, and even sacred observances became 
all but extinct in 2020 as decimated budgets were channeled into 
programs considered most critical.
    Nearly every tribal museum and cultural center closed last year. 
Not only do these facilities create jobs and generate incremental 
tourism revenues for local communities, but they also serve to 
perpetuate indigenous cultures, which were already in jeopardy of being 
permanently lost prior to the pandemic.
    The concern over the loss of indigenous culture is so critical, the 
issue has been defined by the United Nations as one of the six mandated 
areas of the United Nations Permanent Forum on Indigenous Issues.
    Rebuilding the tourism economy for American Indian, Alaska Native 
and Native Hawai'ians across the United States is critical to the 
broader pandemic recovery efforts--particularly in rural areas 
suffering from chronic under-investment in infrastructure, data 
collection and analysis, technical support and economic development 
opportunities. This under-investment has real and devastating effects 
including economic devastation and catastrophic health implications. 
For example: Navajo Nation has been overwhelmed by the virus with over 
30,000 positive cases of COVID-19 and 1,284 confirmed deaths--for a 
total population of 180,462. Navajo Nation, to protect their Nation, 
made difficult decisions to close the reservation to outside visitors, 
implemented a shelter in place order and instituted daily curfews.
    Navajo Nation is just one example of many across Indian Country. 
Tribal governments and communities put their people first during these 
trying times and they will need support to shore-up their systems (many 
of which are dependent on revenue generated from tourism) and address 
the underlying inequities caused by lack of investment to support 
economic opportunities and business development, including for tourism.
    American Indian, Alaska Native and Native Hawai'ian owned 
hospitality related businesses (according to the U.S. Census) receipts 
from hospitality sector businesses in 2012 equaled $7.681 billion. This 
thriving sector of many Native Nations' economies are suffering from 
lost revenue and jobs including native owned destination/tourism 
destinations to individually owned tribal business/tourism companies.
    These closures and decreased visitor traffic will have severe 
economic impact on all native communities, especially small, rural 
destinations across the United States. When you consider, most American 
Indian, Alaska Native and Native Hawaiian tourism operations and 
destinations are not supported by local, regional or national 
destination marketing organizations and/or the tourism industry because 
they are not included in the fees and tax support structures that fund 
tourism development and growth. Further, American Indians, Alaska 
Natives and Native Hawaiians are disproportionately unbanked, resulting 
in lack of access to financial tools to assist with recovery.
    In a recent AIANTA tourism sentiment survey, 77 percent of 
respondents feel that tourism has weakened greatly in their region in 
the past year and only 5 percent believed tourism improved greatly. 
Further, nearly one in four respondents had to close their business 
during the COVID-19 pandemic. (AIANTA's State of Indian Country 
Tourism, Spring 2021).
    The findings of this year's survey are in sharp contrast to survey 
responses pre-pandemic in 2019 with nearly 75 percent of respondents 
indicating they believed tourism would increase greatly (28 percent) or 
somewhat (47 percent) in the coming year and 33 percent of respondents 
expected to increase tourism employment in the coming year. (AIANTA's 
State of Indian Country Tourism, Spring 2019).
    When done well, tourism provides social and economic stability to 
the most remote rural communities and mainstream city neighborhoods, 
complementing the effort of American Indian, Alaska Native and Native 
Hawaiian enterprises, businesses, organizations, and agencies working 
to build economies and contribute to the growth of the U.S. tourism 
industry. For example, by investing in Native agritourism, you are also 
investing in sustainable practices, water protection and equitable 
distribution of resources while addressing food insecurity caused by 
reliance on the greater food distribution system for access to healthy 
and abundant food supplies. Tourism, including agritourism, brings 
revenue to Native Nations and communities providing jobs, localized 
investments and the perpetuation of cultural practices.
Request for Support to Address the Impact of COVID-19 and Chronic 
        Under-Investment
    Funding is immediately needed to accelerate and fully implement the 
Native American Tourism and Visitor Experience Act (NATIVE Act). The 
NATIVE Act is designed to ``enhance and integrate Native American 
Tourism, empower Native American communities, increase coordination and 
collaboration between Federal Tourism assets, and expand heritage and 
cultural tourism opportunities in the United States.'' We have seen the 
impact of initial investments in the NATIVE Act including AIANTA's work 
to identify and provide technical assistance and training with 2020 
seeing some of our largest participation levels in our programming. 
Another example of impact can be seen in the swift investments made by 
the U.S. Forest Service upon receiving NATIVE Act implementation 
funding in cultural tourism infrastructure and projects across the 
United States.
Implementation of the NATIVE Act
    Priority Agency Investment Recommendations: Initiate agency wide 
investments in implementation of the NATIVE Act through appropriation 
requests across the federal departments and agencies as named in the 
Act to begin to realize the purposes and intent of the Act. We urge the 
committee to support full implementation in the intent and purpose of 
the NATIVE Act. Through appropriations and support for technical 
assistance and training, alongside direct investment at this critical 
juncture in the COVID-19 recovery efforts, Native Nations and 
communities will rebuild economic opportunities. Investments now will 
also help address many of the underlying disparities from chronic 
underinvestment exacerbated by COVID-19.
AIANTA's Role and Vision for Rebuilding the Future
    AIANTA will work with American Indians, Alaska Natives and Native 
Hawaiians to develop, grow and sustain cultural tourism enterprises, 
businesses and organizations through technical assistance, training, 
marketing and resources.
    AIANTA will work with the U.S. Department of Interior to ensure 
inclusion of Native Nations and communities in the department and 
agency management plans;
    AIANTA will work with the U.S. Department of Agriculture to support 
recreation and rural development planning and initiatives;
    AIANTA will work with the U.S. Department of Commerce and its 
divisions: National Travel and Tourism Office, International Trade 
Administration and Economic Development Administration to integrate 
tribes into the research and development programs offered by Commerce.
    AIANTA will work with the National Endowment for the Arts, National 
Endowment for the Humanities, Institute for Museum and Library Science, 
Administration for Native Americans, and in Smithsonian projects to 
ensure tourism tribes are well represented in all federal grant 
programs through technical assistance and training opportunities;
    AIANTA will collaborate with the U.S. Department of Labor on data 
collection and tourism workforce development;
    AIANTA will collaborate with the U.S. Department of Health and 
Human Services to support investments in cultural tourism programming 
and initiatives;
    AIANTA will collaborate with the U.S. Department of Transportation 
on infrastructure initiatives and investments that support cultural 
tourism in Native Nations and communities; and
    AIANTA stands ready to help rebuild Native Nations and communities 
and support full implementation of the NATIVE Act as we move through 
this crisis.
    The following documents have been retained in the Committee files:

    A. Travel Impact: AK
    B. Travel Impact: HI
    C. Travel Impact: KS
    D. Travel Impact: MN
    E. Travel Impact: MT
    F. Travel Impact: NV
    G. Travel Impact: NM
    H. Travel Impact: NV
    I. Travel Impact: OK
    J. Travel Impact: SD
    K. Travel Impact: WA
    L.  Office of Governor Mike Dunleavy, Report to White House: Alaska 
Economy Devastated by CDC Decision on Cruise Ships, April 8, 2021
    M.  Research Fact Sheet--Travel: The Hardest Hit U.S. Industry
    N. Case Studies in Tribal Agritourism
    O. AITC 2020 Regional Meeting Summary
    P. 2019 State of Indian Country Survey
    Q.  2020 State of Indian Country/Cultural Heritage Tourism--Impact 
of COVID-19
    R. 2021 State of Indian Country Survey
    S. Letter of Support--Burke
    T. Letter of Support--Cherokee Nation
    U. Letter of Support--Sun Tours

    The Chairman. Thank you very much.
    Next, we have Mr. Russell Dick, President and CEO, Huna 
Totem Corporation, Juneau, Alaska.

     STATEMENT OF RUSSELL DICK, PRESIDENT/CEO, HUMA TOTEM 
                          CORPORATION

    Mr. Dick. Thank you, sir. Good afternoon, Chairman Schatz, 
Vice Chair Murkowski and members of the Committee. It is 
certainly an honor and a pleasure to be here in person and to 
see everybody. Thank you.
    My name is Russell Dick. I serve as the President and CEO 
of Huna Totem Corporation, the Alaska Native Village 
Corporation for Hoonah, Alaska, a community of 760 people, and 
my hometown. Huna Totem is owned by over 1,400 Alaska Native 
tribal shareholders with aboriginal ties to what everyone now 
refers to as Glacier Bay National Park and Preserve.
    I think we can all attest to the fact that the last 14 
months have been extremely challenging for everybody. That is 
no different in our rural communities in Alaska and again, my 
hometown of Hoonah. But we are resilient. And we have been 
resilient because of the cooperative working relationship 
Alaska Native Corporations have with their local tribal 
organizations and communities in building what we refer to as 
economic, social, and cultural infrastructure necessary for the 
sustainability of our Alaska Native communities.
    If you think about how unique we are in Alaska, just as in 
Hawaii, economic opportunity is extremely, extremely limited. 
Hoonah is remote. We are not connected to any other community 
by a road system, so everything is transported by either plane 
or boat. We run primarily off diesel power at a staggering 
electricity rate of 54 cents a kilowatt hour.
    But even with that, we have done what we believe the Alaska 
Native Claims Settlement intended when Congress passed the Act 
in 1971. Under that Act, Alaska Native Corporations are 
established as for-profit corporations. But we do not have 
simply an economic responsibility to our tribal member 
shareholders. We have a deep, profound, social and cultural 
responsibility as well.
    Through our operations, we not only provide dividends to 
our shareholders, but we provide employment opportunities, 
internships, scholarships, we support our cultural preservation 
perpetuation activities by funding language arts programs 
through the school system, we provide funding through Hoonah 
Heritage Foundation to support our way of life, and to teach 
our kids about traditional harvesting activities.
    One of our operations, Icy Strait Point, located in Hoonah, 
is the only privately owned all-inclusive cruise ship 
destination in the U.S., and hosts every major cruise line that 
travels to Alaska. Since its opening in 2004, we have 
contributed over $60 million directly to the community of 
Hoonah. We are the largest private employer and single 
contributor to local sales tax, representing 80 percent of the 
community's tax base.
    Unfortunately, the pandemic has had a devastating impact on 
our operations in the community. As we all know, the CDC shut 
down the cruise industry in the U.S., and to date, it is the 
only, the only major industry not operating today. In 2020 
alone, that shutdown meant the loss of at least half a million 
guests and their economic contributions of nearly $10 million 
to our community.
    Icy Strait Point normally employs over 250 people during 
the season, with nearly 80 percent local and Alaska Native 
hire, all in a community less than 800 people. All of those 
jobs were non-existent in 2020 and all of those jobs are non-
existent today.
    So it has been over 20 months since Alaska has seen a 
cruise ship, and our 2021 Alaska cruise season is also in 
peril, which will continue to devastate the communities 
throughout Alaska, like Hoonah, that depend on tourism. A quick 
restart to cruising in Alaska is absolutely critical.
    Please remember, our season is only five months. We operate 
from May through September. If we don't see a cruise ship in 
2021, it will be 31 months without any economic opportunity in 
our community. That is devastating socially and culturally.
    As you can see the impacts of the pandemic on Native 
tourism and the tourism economy more broadly, we have a few 
additional suggestions outside of the CDC work that our Alaska 
delegation is doing today. We support equitable funding for 
Native American borrowers participating in the Bureau of Indian 
Affairs loan guarantee program.
    Last year, Congress enacted provisions in the CARES Act 
that provided $17 billion to the SBA to pay principal, interest 
and fees on SBA loan products. That assistance was for a period 
of six months, which was then extended by Congress at the end 
of 2020.
    But for whatever reason, Congress has declined to provide 
any relief to the BIA program's Native American borrowers, even 
though the BIA program was intended to reduce the disparities 
between Native and non-Native businesses.
    Finally, the Passenger Vessel Services Act needs to be 
reformed to support American jobs. To avoid violating the PVSA, 
foreign-built ships have to visit a foreign port at some point 
during their voyage. For cruises for Alaska, that means a stop 
in Canada. The problems associated with the PVSA have been 
exacerbated by the pandemic, during which time Canada has 
closed its port to cruise ships.
    The price is paid in Alaska, in our region, and to our 
village. To me personally, Mr. Chair, and Madam Vice Chair, as 
an indigenous community in the United States of America, having 
another Country dictate our economic prosperity has to be 
completely unacceptable.
    What matters most for us today is the next steps to salvage 
the 2021 season and return to normal operations in 2022. We all 
agree that public health is our common priority, but economic 
health is intertwined with that goal. They need not and should 
not be mutually exclusive.
    [Phrase in Native tongue.] Thank you for the opportunity to 
comment today.
    [The prepared statement of Mr. Dick follows:]

     Prepared Statement of Russell Dick, President/CEO, Huna Totem 
                              Corporation
    Good afternoon Chairman Schatz, Vice Chair Murkowski, and members 
of the Committee. Thank you for the opportunity to testify before you 
today.
    My name is Russell Dick. I serve as President & CEO of Huna Totem 
Corporation, the Alaska Native village corporation for the village of 
Hoonah, Alaska. Huna Totem Corporation has worked for nearly 20 years 
to develop our port, Icy Strait Point, as a premier destination for the 
cruise ship industry. To our knowledge, Icy Strait Point is the only 
Indigenous-owned, all-inclusive cruise ship port in the United States. 
Icy Strait Point is located near the community of Hoonah, approximately 
35 miles west of Juneau and 22 miles from Glacier Bay National Park and 
Preserve, which is our ancestral homeland. Icy Strait Point drives our 
local economy and provides enormous economic, social, and cultural 
benefits for our people. The impacts of COVID-19 on our Native tourism 
economy cannot be overstated. It is critical that our tourism economy 
be restored as quickly as possible, which means among other things 
taking every necessary step to ensure that cruise ship services return 
to Southeast Alaska as early this summer as possible.
Our Corporation
    Huna Totem Corporation is owned by over 1,400 shareholders whose 
aboriginal ties are to the Village of Hoonah and what is now Glacier 
Bay National Park and Preserve, in Southeast Alaska. The Corporation 
was formed under the terms of the Alaska Native Claims Settlement Act 
(ANCSA), enacted by Congress on December 18, 1971. Huna Totem 
Corporation was incorporated on November 9, 1973.
    ANCSA paved the way for the formation of 12 Alaska Native regional 
corporations and approximately 200 village corporations spread 
throughout 12 regions in Alaska. Under ANCSA, Huna Totem Corporation 
received one township (23,040 acres) of land.
    Alaska Native corporations operate as for-profit entities for the 
benefit of their owners, but they are not typical corporations. Huna 
Totem Corporation has business interests in tourism, investment 
management, federal contracting, and natural resources. As contemplated 
under ANCSA, these interests enable us to return important economic, 
social, and cultural benefits to our community. Beyond the dividends we 
return to our shareholders, we provide internships and employment, and 
support our cultural preservation and perpetuation activities through 
the Huna Heritage Foundation and Alaska Native Voices Educational 
Institute. We support our elders with firewood deliveries, our schools 
with computers and broadband access, and our community with food 
supplies. In short, our mission is holistic in our contributions to the 
community, as was originally intended under ANSCA.
Our Community
    Hoonah is located on Chichagof Island. We, as members of the Xuna 
Kaawu, have thrived in the area for thousands of years. Our community 
is remote; it is not connected to any other community by a road system, 
runs significantly on diesel power, and has limited economic 
opportunity. Economic activities that largely defined our economy in 
the twentieth century--timber and fishing--are at a low ebb. However, 
we are a resilient people, and we are fortunate to have had an 
opportunity to develop a sustainable tourism-based economy for our 
village.
    Ground was broken at Icy Strait Point in 2001. We invested in 
ourselves, making significant renovations and modern additions to 
Hoonah's historic salmon cannery. The Celebrity cruise ship MV Mercury 
made the inaugural call to Icy Strait Point in 2004. Through bold 
leadership, strategic investment, and historic resolve, we brought Icy 
Strait Point to life, ushering in a new era of economic opportunity for 
the community of Hoonah and our shareholders, providing employment, 
financial contributions, and a strong tax base to support the 
community.
    Since that first ship call in 2004, we have built two cruise ship 
piers, along with extensive uplands facilities, 30 tours and 
excursions, three waterfront restaurants, 100 percent Alaska-owned 
retail shops, the world's largest zipline, and Alaska's first high-
speed gondola system. Icy Strait Point is now renowned as a world-class 
cruise ship destination and we are proud to have won Seatrade's 2020 
Global Port of the Year award, which recognized Icy Strait Point for 
incorporating not only the beauty of Alaska, but the authentic and 
unique culture and values of the Xuna Kaawu.
    For over 16 years, Huna Totem has been on a journey to develop Icy 
Strait Point into a world-class destination. Since opening in 2004, we 
have hosted over two million passengers, and received ships calls from 
every major cruise line traveling to Alaska. We are the single largest 
employer and contributor to local sales tax in Hoonah, having 
contributed over $60 million directly to the community over that 16-
year period.
    The pandemic has affected us all. For Hoonah, the pandemic has 
meant the loss of at least a half million guests and the concomitant 
economic contribution to our community. Icy Strait Point will return, 
not because we are a corporation per se, but because we are the 
corporation--the village corporation--that Congress created to serve 
our people. But we need the Federal Government's help and cooperation 
now to do that.
Economic Impact of the Pandemic
    The shutdown of the cruise industry has profoundly disrupted our 
local economy, as 80 percent of our local tax base comes from tourism. 
Icy Strait Point normally employs over 250 people during the cruise 
ship season, with nearly 80 percent local and Alaska Native hire. All 
of this occurs in a village of less than 800 residents.
    Icy Strait Point is a great example of what Alaska Native village 
corporations can do for their communities. Beyond the tax contributions 
to our community, the jobs and the infusion of dollars into the local 
economy, the heart of our business is truly the families and their 
children who own our business and are empowered by it. During the 2019 
season, Icy Strait Point employed 27 of the 32 students from the high 
school in Hoonah. Think about that: we exist to create opportunity for 
our kids in their own community. Isn't that the core of what parents 
want for their children in their hometowns? This is what Congress 
intended when it created Alaska Native corporations.
    But we have faced an enormous challenge as a consequence of the 
pandemic. Where in 2019 we received 167 ship calls carrying roughly 
270,000 visitors, the 2020 season was cancelled. In 2020, Icy Strait 
Point expected to receive 212 ship calls carrying over 440,000 
passengers and employ over 250 people with a direct economic 
contribution of over $10 million to the community of Hoonah. At this 
time, over 20 months have passed since Alaska has seen a cruise ship. 
The result has been closed local businesses, the loss of hundreds of 
jobs, a slowdown in economic activity, an increase in food insecurity, 
lost ferry service, and decreased funding to the City of Hoonah, 
amongst other negative effects. As you know, the 2021 season is now 
imperiled. The loss or further delay of the 2021 summer cruise season 
will continue to devastate the communities throughout Alaska, like 
Hoonah, that depend on tourism. A quick restart to cruising in Alaska 
is critical. Leadership from the City of Hoonah, the community, and Icy 
Strait Point are all eager for cruise ships to return.
Our Concerns with the Ongoing Federal Approach to Tourism
    We believe that a balanced approach to the pandemic, looking 
forward, must consider both the direct health issues of COVID-19 
coupled with the need to avoid devastating impacts on our village 
economy. As a port, we hold ourselves to the highest standards in 
hygiene, safety, and environmental protection, serving as our village's 
economic engine while keeping our guests, staff, elders, and community 
members safe. We would like to see the Federal Government take a 
balanced approach as well.
    We are deeply concerned with the handling of the pandemic and of 
our industry by the Federal Government and, in particular, the Centers 
for Disease Control (CDC). As we wrote to the CDC last January, five 
long months ago, the next steps to be undertaken by the CDC regarding 
cruising are of great interest to us. Cruising has safely resumed in 
other parts of the world, with multiple levels of prevention proving 
successful. We are ready to move forward.
    In Alaska, we are well-prepared to regulate and manage local 
operations, working together with industry and our local and state 
authorities. The community of Hoonah has been proactive and successful 
in managing the pandemic, with 100 percent of locals and visitors 
tested upon arrival, weekly wastewater testing, and currently zero 
active cases (with only 4 cases total throughout the pandemic).
    Icy Strait Point developed a COVID-19 response plan back in April 
of 2020. We have initiated and are committed to the GBAC STAR facility 
accreditation program, from the Global Biorisk Advisory Council, a 
Division of ISSA--The Worldwide Cleaning Industry Association, to 
prevent and respond to outbreaks, and to deliver a clean, healthy, and 
safe environment. This is a third-party validation of safety and 
documented systems.
    We have been actively communicating with the state of Alaska, City 
of Hoonah, Juneau, and other ports in southeast Alaska, and with cruise 
line operators expected to visit Icy Strait Point. We have explored 
various technologies in sanitation; and our policies and procedures 
meet or exceed current cruise line operational protocols, including the 
Vessel Sanitation Program, as well as existing CDC COVID-19 guidance. 
To date, the CDC's singular focus on the cruise industry, the overly 
prescriptive details in its Conditional Sale Order and accompanying 
guidance, and its one-size-fits-all policies that do not fit rural 
Alaska, have proven preclusive to an actual 2021 season.
    Combining strong vaccination programs with adherence to the 74 
recommendations developed by the Healthy Sail Panel will provide for a 
safe resumption of sailing. The plain truth is that our village, our 
corporation, our part of Alaska, the cruise lines, and the CDC all have 
the same goal, which is to safely sail.
    We suggest that the CDC should limit its oversight to on-board or 
at-sea issues and leave onshore issues to existing CDC regulations and 
local control, as it does for other tourism operations, hospitality, 
and other industries. We would ask that CDC continue to review and 
revise its technical instructions to ensure that Alaska can have as 
much of a 2021 season as possible. After a long delay, we understand 
CDC is now working to ensure cruise lines can return to operation. 
CDC's continued commitment to this goal is critical to us and it must 
be held to account. Cruise ships can move their operations to any 
region of the world but we cannot. We need the CDC to work with the 
cruise lines to ensure they can return to Alaska as soon as possible 
this summer.
How Congress Can Help: Provide Relief to Bureau of Indian Affairs Loan 
        Guarantee Program Borrowers
    As Congress considers the impacts of the pandemic on Native tourism 
and the tourism economy more broadly, we have a few suggestions. For 
starters, we strongly urge Congress to provide equitable funding to 
support Native American borrowers participating in the Bureau of Indian 
Affairs (BIA) Loan Guarantee Program.
    Last year, Congress enacted provisions in the CARES Act that 
provided $17 billion to the Small Business Administration (SBA) to pay 
the principal, interest, and fees on all preexisting SBA loan products 
issued under SBA's Section 7(a) loan guarantee, 504, and microloan 
programs. The legislation directed SBA to provide this assistance for a 
period of six months on behalf of small businesses impacted by COVID-
19. Congress extended this coverage under the Aid to Hard-Hit Small 
Businesses, Nonprofits, and Venues Act, signed into law on December 27, 
2020. Congress should provide similar relief to Native-owned businesses 
participating in the BIA Loan Guarantee Program; the failure thus far 
to extend equal relief to the BIA Program's Native American borrowers 
is inequitable on its face.
    Native-owned businesses around the country are struggling to stay 
afloat. This is particularly true for businesses in the tourism and 
hospitality sectors, for which the COVID-19 emergency has been 
particularly damaging. One of the programs already in place to support 
Native-owned businesses is the BIA Loan Guarantee Program, established 
pursuant to Section 201 of the Indian Financing Act of 1974.
    This program supports Native-owned businesses that contribute to 
the economy of an Indian reservation or a Tribal service area. Native-
owned businesses across Indian Country participate in this program, 
including businesses in New Mexico, Arizona, Alaska, Oklahoma, Nevada, 
Montana, Washington, Wisconsin, North Dakota, and South Dakota. 
Congress should extend relief to Native-owned businesses participating 
in the BIA Loan Guarantee Program, which would help these businesses 
survive long enough to get back on track financially. The BIA Loan 
Guarantee Program is small, and relief would cost a small fraction of 
the relief already extended to other SBA program borrowers.
    Specifically, we suggest that Congress should provide funding to 
BIA to aid Native-owned businesses based on relative economic need, 
with a six-month base period for all borrowers (consistent with the 
CARES Act relief for SBA borrowers), and additional funding available 
to allow BIA to extend the relief period for up to 18 months to 
individual borrowers based on the relative economic impact of COVID-19 
to their respective businesses.
    It is inequitable that financial assistance has not already been 
extended to borrowers participating in the BIA Loan Guarantee Program. 
As BIA points out on its website, ``Congress passed the Indian 
Financing Act of 1974 . . . to reduce the disparity between business 
capital available to Indian and non-Indian businesses.'' As noted by 
the Treasury Department's Native American CDFI Assistance Program, 
Native communities face unique challenges to economic growth, including 
heightened barriers to accessing capital and basic financial services. 
Congress should help BIA Loan Guarantee Program borrowers, just as it 
has done for SBA borrowers.
How Congress Can Help: Fund the Maritime Transportation System 
        Emergency Relief Program
    We recommend that Congress support an appropriate level of FY 2022 
funding for the Maritime Transportation System Emergency Relief 
program, as established in Section 3505 of the FY 2021 National Defense 
Authorization Act. Section 3505, the Maritime Transportation System 
Emergency Relief Act, was designed to ``provide relief to those in the 
maritime industry during a national emergency such as the ongoing 
COVID-19 pandemic or natural disasters.''
    The new program, if appropriately funded, will provide broad 
assistance to ports and public and private entities engaged in 
``support activities'' for marine transportation. Huna Totem 
Corporation suggests that the Maritime Administration should give 
priority to marine transportation and port entities based on relative 
loss of income experienced because of the COVID-19 pandemic.
How Congress Can Help: Amend the Passenger Vessel Safety Act to Protect 
        American Jobs
    Huna Totem urges Congress to reform the Passenger Vessel Safety Act 
(PVSA) in a manner that will best support American jobs. Congress needs 
to recognize that large passenger ships have not been built in the 
United States for over 60 years. As it pertains to large cruise ships, 
the PVSA's mandated use of U.S.-built vessels is protectionism for an 
industry that simply does not exist. The price is paid here in Alaska, 
in our region, and in our village.
    The problems associated with the PVSA have been exacerbated by the 
pandemic, during which Canada has closed its ports to cruise ships, 
making it currently impossible for Alaskan cruises to carry on even 
after the Federal Government has signed off on cruising.
    To avoid violating the PVSA, ships that do not meet its 
requirements must visit a foreign port at some point during their 
voyage. For cruises to Alaska, that means a stop in Canada. But 
Canada's ports currently are off-limits to cruise ships through 
February 2022--making visits to Alaska by such vessels impossible 
without a change in the statute or administrative waiver, which is also 
proving difficult to obtain.
    The reality is that our community currently faces a situation in 
which we might have no economy this summer to support our employees--80 
percent of whom are local and Native hire--because Congress has not 
dealt with the PVSA. This is not Canada's fault; this is the Federal 
Government's fault. Let me be clear: the PVSA right now is preventing 
us from hiring Americans in an American community that desperately 
needs those jobs. The U.S. Congress is responsible for this problem.
Conclusion
    The effects of the COVID-19 pandemic on our community and our 
corporation have been extreme. They have been compounded by the 
complexity and slowness of the CDC's response, a terribly outdated 
federal law, and a failure to extend benefits made available to SBA 
Loan Guarantee Program borrowers to BIA Loan Guarantee Program 
borrowers. The loss of jobs and tax base have been profound. What 
matters most for us today is the next steps to salvage a 2021 season 
and return to normal operations in 2022. We all agree that public 
health is our common priority, but economic health is inextricably 
intertwined with that goal. They need not, and should not, be mutually 
exclusive. The time to move forward is now. We are looking to you for 
help. Thank you.

    The Chairman. Thank you very much for your compelling 
testimony. I am going to try to go very quick because we do 
have votes coming up.
    Mr. Alvord, I spoke with Secretary Raimondo to share my 
disappointment that the Department had failed to implement the 
NATIVE Act over the last four years. How is the Department 
going to move forward, specifically?
    Mr. Alvord. Thank you, Mr. Chairman, for the question. I am 
aware that the Department had not provided some of the reports 
called for under the Act and has been slow to implement some of 
the other provisions, including putting in place a memorandum 
of understanding, and various forms of interagency coordination 
and prioritization around our grant funding.
    As I hope I have expressed in my testimony here today, the 
Department has strong equities and I think a lot of policies, 
programs, data and information that we can bring to bear to aid 
the implementation of that Act. You have our full commitment to 
doing so moving forward.
    The Chairman. We will be checking in just about monthly, 
not to create a sort of reporting requirement that costs you a 
lot of time, but just to know where we are. We can go to 
quarterly or even annually if I feel sufficiently confident 
that it is being implemented. But for at least the time being, 
I would like to understand at a somewhat granular level how you 
are moving along.
    Speaking of granular level of implementation, Mr. Rodman, 
you mentioned the $12 million provided by Congress to BIA. I 
wonder what the time frame is for deploying those dollars.
    Mr. Rodman. Thank you, Senator Schatz. We are looking for 
the tribal tourism grant to go out within the month, hopefully 
sooner than that. And that soon right on the heels of that 
would be the Native Hawaiian Organization grants as well. So it 
is one of the next grants that we are going to churn out, the 
tourism grants.
    The Chairman. Thank you.
    Ms. Rupert, how can the Federal Government use the NATIVE 
Act to increase support for Native tourism, and are there any 
Federal agencies that you believe should serve as a model for 
NATIVE Act implementation?
    Ms. Rupert. Sure. We work with several agencies within the 
Federal system. There are some agencies that have considered 
their management plans and have included tribes in that. Most 
recently, Congress appropriated $1 million to the U.S. Forest 
Service. I have seen the projects that they are funding, and 
they are all across the Country in every region.
    So we would love to see more of that, with the Federal 
agencies working closely with us, with AIANTA, and through the 
NATIVE Act. It provides a number of opportunities for tribes to 
be more involved at the Federal level. We would be happy to 
assist in any manner that we can.
    The Chairman. Thank you very much.
    Mr. De Fries, I have a couple of questions for you. First 
of all, thank you for being willing to serve in the government, 
and thanks for your leadership on these issues.
    The NATIVE Act seeks to empower Native Hawaiians to tell 
their own stories. I am wondering what you think HTA can do to 
ensure Native Hawaiians play a role in defining the contours of 
tourism going forward. I am particularly interested, I am sort 
of merging two of my questions, in the balance that you have to 
strike between presenting an authentic version of the State of 
Hawaii, but still dealing in numbers, dealing in the objectives 
around maybe 10 million visitors annually is too many. But 
certainly you are looking at millions of people and trying to 
provide an authentic experience to them.
    How do you do that and maintain authenticity when it is in 
the millions, when you are allowing people to visit places and 
cultures and people that want to tell their own stories, and 
yet it is unsustainable at the cultural level, sometimes at the 
environmental level, to have that many people interacting in 
that way? I am wondering how you strike that balance.
    Mr. De Fries. We are in the process of trying to learn how 
to strike that balance, to be quite honest. When we ended year 
2019 at 10,400,000 visitors, it was a banner year, first time 
Hawaii had ever surpassed that 10 million mark. But it 
produced, in certain areas, a lot of tension in terms of 
overcrowding and what we have come to know as over-tourism.
    What is going to help that is some of the management 
systems that we are working together with, DLNR, Department of 
Land and Natural Resources, to try and manage the flow of 
people, especially giving them information as to what peak 
periods they should avoid.
    On a macro level, what we have done is we have taken the 
conversation to every island and every community and basically 
invited, over the last 14 months, each of the islands to 
convene a very diverse steering committee that sets a framework 
in place for a larger community discussion, and giving voice 
and definition to what a sustainable tourism model looks like 
in their community, on their island specifically.
    So we are on a steep learning curve to try and understand 
that. Question number one every week for me is someone saying, 
how do we cap the number of air seats, how do we cap the number 
of rental cars, all of that. Frankly, you are aware that there 
is Federal legislation that keeps us from being able to do 
that.
    So the best we can do is to try and manage this flow 
seasonally and throughout the various islands, and as best we 
can prevent this over centralization of human activity in 
certain hot spots throughout the State.
    The Chairman. Thank you. I appreciate the two thoughts. 
First, you are right, we would have to amend the Constitution 
to be able to stop people from coming in, which would be quite 
a challenge. The other thing I want to recognize is the 
humility with which you approach this inherently difficult 
challenge. We do want people visiting, we want to welcome them.
    But there is such a thing as too much of a good thing, and 
I think 10,400,000 was well beyond too much of a good thing. 
But now we don't have enough of a good thing and we have tens 
of thousands of people wanting to go back to work. So striking 
that right balance in whatever it is that is the new 
equilibrium is at least partly your job, and I appreciate it.
    Vice Chair Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I am smiling because we are living that same scenario in 
Alaska. We are not at 10 million, we thought 1.3 was pretty 
significant. But how you do achieve that balance is so 
important.
    Mr. Dick, thank you for your testimony, the compelling 
story. I think you have outlined in a very clearly articulated 
way how, with the promise of ANCSA we really have seen an 
economic and cultural empowerment. You have described the jobs 
that have been created in a small community, 760 people, and a 
recognition that the contribution to the tax base there, 80 
percent of the tax base comes from the tourist base that you 
have built.
    It was not too many years ago that I was in Hoonah. Not 
only did Hoonah not have a bank at that time, they didn't even 
have a cash machine. So the only way that you could get money 
is if you flew to Juneau, or actually the store there would 
cash a check. But our reality is what Huna Totem has put in 
place has been an economic lifeline that you have created 
there. I think it is extraordinarily significant.
    Thirty-one months, we are hoping that it will not be 31 
months where we do not have a tourist season. We are hoping, we 
are doing everything possible again, beginning with 
communicating with the Secretary of Homeland just this morning 
on PVSA and what we might be able to do on that. Explain to the 
Committee, though, if you don't have tourism, what economic 
opportunity does the community of Hoonah have right now in 
Alaska?
    Mr. Dick. Thank you for that question, Vice Chair 
Murkowski. I don't think there is much opportunity at all. If 
you look at some of the other communities in Alaska, some in 
the interior, communities like Juneau or Ketchikan, you may 
still have the opportunity for independent travelers. Not to 
the extent that you used to have them, but you still have that 
opportunity.
    In Hoonah, we don't have that opportunity. We don't have 
that infrastructure. Our infrastructure is built around cruise 
ships and cruise ship travelers.
    Senator Murkowski. Could people fly Alaska Airlines into 
Hoonah?
    Mr. Dick. You can get a Cessna and a Caravan into our 
airport. Nothing bigger than that, Senator.
    Senator Murkowski. So let me ask, then, because you noted 
that CDC focuses absolutely on health and safety as is their 
mission. We understand that. Can you describe the COVID 
response plan, the safety protocols that you have put in place 
in order to provide for this level of opportunity so that folks 
can come in? I think there are some who are saying, we will at 
all costs just open the doors because we need the economic 
revenues.
    But just describe very briefly the third party validation 
of the safety systems, what you have put in place to make sure 
that not only the passengers are in a safe place, but also the 
entire community of Hoonah, and the efforts they have made.
    Mr. Dick. Thank you, Senator. I think I will answer that in 
a couple of ways. In the first way is how we have built out Icy 
Strait Point. It is built a mile and a half away from the 
community of Hoonah. So we are able to keep guests relatively 
contained there, though we do have guests that come up into 
town.
    The city of Hoonah has done an extraordinary job, through 
Hoonah Indian Association, the local tribe, in basically 
monitoring COVID in and out of the community. So everybody, 100 
percent of all travelers who come into the community by plane 
or by boat, or otherwise, I don't know how otherwise you might 
get there, maybe swimming, they do 100 percent testing. Based 
on that testing, they will have people quarantined if they test 
positive; if not, they continue on with their daily lives.
    In the community of Hoonah, they have had a total of six 
cases of COVID over the last 14 months. They have done an 
extraordinary job themselves.
    For us at Icy Strait Point, we have an individual who has a 
Masters in public health. From day one, in early April, we have 
had protocols put in place around sanitation, hygiene, how we 
are going to control the flow of passengers, what kinds of 
protocols we are going to put in place in terms of mask-
wearing, indoors, outdoors. That has been in place since April 
of last year.
    We have updated that plan based on the Health Sales Panel 
74 recommendations that came out of the work that Royal 
Caribbean and Norwegian Cruise Line did. We have continued to 
update that based on the guidance that the CDC has put out.
    So we feel extremely confident about our ability to safely 
manage guests at our port and ensure the protection of our 
elders and our community members.
    Senator Murkowski. One last quick question for you. You 
have had an opportunity to listen to Mr. Alvord with EDA as 
well as Mr. Rodman with BIA, a discussion about what is 
available through EDA in terms of funding opportunities as well 
as competitive grants for tribes that Mr. Rodman mentioned 
through BIA.
    You have articulated, I think very well, and it is a good 
reminder to us that with the BIA loan guarantee program, 
allowing that to provide relief to Native-owned businesses, 
that is a very important suggestion to the Committee. Do you 
see, either through EDA, or the BIA grants that Mr. Rodman is 
speaking to, that these could be helpful within Native tourism?
    Mr. Dick. Thank you, Senator. We hadn't seen that to date. 
Of course, given the current definition of their programs, we 
will certainly go back and take a look to see if those can work 
for Alaska Native Corporations.
    I know the issue through EDA has always been money going to 
communities and to tribes, and not necessarily to Alaska Native 
Corporations who have made the kind of investment that we have 
in a place like Icy Strait Point.
    Senator Murkowski. Again, I think you have outlined very 
well how those benefits that come through the ANC then are 
spread out, whether it is to the 1,400 shareholders there at 
Huna Totem, or more broadly.
    Mr. Chairman, thank you so much.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chairman. Again, thank 
you to all the panelists.
    Mr. Alvord, let me start with you. I noticed in your 
testimony you are still working through the funding 
availability notice for the total $3 billion in the American 
Rescue Plan as well as how to implement the 25 percent carveout 
for tourism support. Can you please talk about the metrics that 
EDA will be using to ensure that the funding is prioritized for 
the communities that have suffered the greatest impact of the 
tourism decline?
    Mr. Alvord. Absolutely, Senator, and thank you for that 
question. I should start by saying that EDA is acutely aware 
that even before the pandemic that Native communities were 
underserved and among the most economically distressed 
communities that are eligible for EDA assistance. The pandemic 
only exacerbated that situation. These same communities were 
then among the most impacted from a health and economic 
development standpoint.
    As a result, we have taken a number of actions as part of 
our program designed to make sure that we are in a very strong 
position to be able to serve those needs. One action that we 
have taken already is that we have revised our investment 
priorities. These serve as a guideline for how EDA will 
undertake its investment activity. We have made equity among 
the principal priorities through which we will be viewing our 
investment portfolio, for the ongoing work under the CARES Act, 
for the new work that we will be initiating under the American 
Rescue Plan, and for the entirety of EDA's economic development 
assistance program.
    So we believe that will be very helpful in ensuring that we 
are guiding our investments toward those types of 
opportunities.
    Among the principal metrics that we use to look at how we 
are doing, we evaluate how many jobs we are helping to create 
or retain as a result of our current investments, as well as 
the additional private and public investment that is being 
leveraged.
    Senator Cortez Masto. Let me be a little bit more specific. 
Are you going to make it clear that tourism marketing is an 
eligible and worthwhile investment? That was something that I 
really fought for in the ARP, because our tourism and travel 
industry had been so hard hit.
    I want to make sure that that carveout that was focused on 
tourism is also a metric that many of our communities know is 
available for funding. Is that something you are going to 
highlight with them?
    Mr. Alvord. Absolutely, Senator. We definitely view 
marketing as a critical component to helping the tourism 
economy to bounce back quickly at this time. We believe that 
will align very well with our traditional metrics, because it 
is going to help to retain jobs, it is going to help to bring 
jobs back very quickly. So within that $750 million industry 
specific set-aside within the American Rescue Plan, marketing 
activities will be eligible, and we will be certain to make 
that clear.
    Senator Cortez Masto. Okay, thank you.
    Ms. Rupert, in your testimony you note that destination 
marketing organizations don't always market tribal 
destinations, because they aren't included in the fee 
structure. Do you think tourism promotion is key to getting 
visitors to come back to tribal communities? How can we better 
target investments to those who need that support?
    Ms. Rupert. Definitely yes. Every tribal destination 
attraction needs to be marketed. We do our best with the 
limited amount of funding that we have. But for tribes and 
Native-owned businesses to be marketed by their own State would 
be so helpful to them, as well as through Brand USA, our 
marketing of the United States. It is very important for tribes 
to be included in that as well.
    So the issue is that when tribes are located within a 
certain State but don't, on their tribal lands, especially in 
Nevada, none of our tribes have lodging establishments. So 
therefore, they are not putting into the lodging tax that goes 
to the State for promotion of the State. So our tribes don't 
get promoted in that way.
    Senator Cortez Masto. Thank you. That is why, to the 
Chairman and members of the Committee, the work that I have 
done and will continue to do is, how do we ensure that our 
tribal communities have the support they need at the Federal 
level to incentivize their economic development, whether that 
is around tourism or travel or other things that we can help 
them with.
    But I think it is so important. I know just in the State of 
Nevada, and what Sherry said is, our tribes, we don't have 
tribal gaming. Many of the tribes cannot compete with the 
gaming that is on the Las Vegas strip or in Reno. So we have to 
figure out other ways that we can continue to incentivize 
economic development, and tourism or travel. Outdoor recreation 
s also an important part of this as well.
    Thank you to the panel members, and thank you for this 
important hearing.
    The Chairman. Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman.
    Director Rodman, for you as the Country and of course the 
tribes work to come out of the COVID pandemic, obviously you 
face many challenges. One is to get their economy going again.
    Specifically, how do you help them jump start their 
economies and get them going, particularly in regard to 
tourists?
    Mr. Rodman. Thank you, Senator Hoeven. With regard to 
tourism, we are hoping to get our funding out very quickly for 
grants and for the technical assistance component. The grants 
that we have done typically are feasibility studies based; not 
all, but mostly. So that really scopes out the viability of a 
project. For these particular grants, they will be 
accommodating or considering tourism businesses that have 
really been impacted by COVID-19, which is pretty much all of 
them. So how do they bounce back from that. Those will be 
individually based.
    We are also working with our technical assistance teams in 
certain regions for a regional approach. That is really 
leveraging the cooperation of all the tribes in a given State, 
and the State tourism departments, and the local infrastructure 
to get a big boost, and for tribes to get more visibility. Some 
of the tourism promotion that is going on in States, in North 
Dakota, that is right on the cusp of taking off from the work 
that we have done.
    Then working with AIANTA to identify more nationally the 
technical assistance needs, then figuring out how to deliver 
those most effectively to tribal communities which will inform 
our Federal policies on how to best address those technical 
assistance needs. So it is really national, regional, and we 
have some local projects as well.
    Senator Hoeven. So in terms of lessons learned, what are 
the lessons learned in terms of COVID and how you can really 
make a difference?
    Mr. Rodman. I think, sir, in talking to our technical 
assistance experts, one of the areas that they are focusing on 
and working with the tribal teams now is resiliency. I know 
that we talk a lot about resiliency. But I think this COVID-19 
was, everyone was using the word unprecedented, but that is 
really what happened here. So the experts that we are working 
with at George Washington University and Virginia Tech are 
working with the tribal teams to ensure there are ways to 
pivot.
    So in this case there was a lot of online, a lot of things 
went to line. We looked at online tourism, and we went to 
Airbnb and Eventbrite. There were certain sessions where people 
could pay and learn about star quilt making or Native fashion 
or other cultural elements, to learn about that. But then there 
were also some where artisans could sell some of the products 
as well.
    So we are trying to factor that in moving forward, we have 
to, given COVID-19, it is that resiliency type of methodology.
    Senator Hoeven. Thank you.
    Ms. Rupert, how do public-private partnerships like Brand 
USA as well as other organizations work with tribes to help 
them with jobs and their economy, particularly in regard to 
tourism?
    Ms. Rupert. Here at AIANTA, we do partner with Brand USA. 
We partner with them on fan tours. We bring international 
groups over, specifically Italian, the Italian market, tour 
operators and travel agents. And we bring them to different 
parts of the Country, into different tribes annually. Usually 
that is prior to IPW, which is the largest travel trade show in 
North America.
    We actually work with the tribes to build the itinerary. We 
take these tour operators, media and travel agents with us 
there, and they get to learn all about those tribes and find 
out which destinations and attractions they can participate in, 
or add to their tours. So we partner with them, and that way, 
they usually come to our annual American Indian Tourism 
conference, and talk about the different initiatives that they 
are doing, inviting the tribes to participate in that.
    There definitely needs to be, as I mentioned earlier, there 
definitely needs to be more of that going on in Indian Country.
    Senator Hoeven. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    I will now turn to Vice Chair Murkowski for some concluding 
remarks.
    Senator Murkowski. Thank you, Mr. Chairman.
    I know we do have votes that have begun. I want to thank 
our witnesses for their contributions here today. I think we 
recognize that we have seen an unprecedented amount of Federal 
funding that has been directed to provide assistance for our 
tribes, for our Native people, whether it is the CARES Act last 
year, the end of year package, the Rescue package this year and 
there is more than is being discussed.
    But I think we recognize that it is not just about 
directing the dollars. It is making sure that those directed 
dollars are able to get to a place and in a way that addresses 
those that have been most significantly impacted. I think we 
have heard some stories today about the extraordinary economic 
impact.
    The story of Hoonah is clearly one that is pretty powerful, 
a community of 760 people, and the economic activity that comes 
with what Huna Totem has created through the tourism industry, 
to be able to provide 250 jobs in that community, to be able to 
be 80 percent of your tax base, to be able to put 27 of the 32 
high school students to work on a summer job, give them those 
job skills.
    I think we recognize that how we can work to facilitate 
ensuring that the level of response is really in these areas 
that have been significantly impacted, we want to be able to do 
that. But we also know that it is not just the Federal dollars. 
Sometimes it is the Federal Government and our regulations that 
hold us back from achieving what it is that has been built and 
worked so hard to facilitate over the years. That is exactly 
what has happened in this situation.
    Russell, your comment that as an indigenous person, 
basically the economic livelihood of the people in your home 
village is being dictated by Canada right now, which is 
effectively what we are dealing with, with the PVSA, this is 
something that we need to address, we must address, and we will 
address it. We need to do it now, so that there is some 
semblance of a season, even if it is just a couple of months, 
it will be better than a kick in the rear, which is what the 
region has seen.
    So know that we are going to work with you. Mr. Chairman, I 
really appreciate that we have held this hearing today. You 
pulled together a good panel of folks to talk about these 
issues.
    I agree with you, I think we need to make sure that there 
is a level of accountability within the Department of Interior 
as well. So know that I am going to be looking forward to 
getting the updates on that report about the NATIVE Act and its 
implementation as well.
    Thank you.
    The Chairman. Thank you very much. I want to thank our 
excellent and diverse panelists for presenting their views.
    If there are no more questions for our witnesses, members 
may also submit follow-up written questions for the record. The 
hearing record will be open for two weeks.
    I want to thank all the witnesses for their time and their 
testimony today. This hearing is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             John De Fries
    Question. What can the Federal Government do to provide the most 
effective assistance to Native tourism operations in states like 
Hawai`i, where travel, tourism, and hospitality sector revenues have 
suffered so greatly as a result of the pandemic?
    Answer. The Hawai`i Tourism Authority is operating today with the 
understanding that Hawai`i's future is in regenerative tourism--tourism 
that gives back more than it takes. Native tourism operations in 
Hawai`i and across the nation draw upon generations of ancestral 
stewardship that followed similar paradigms of prioritizing 
reinvestment in community, natural, and cultural resources.
    For that reason, we recognize Native tourism's role in the vanguard 
of regenerative tourism that will address the immediate recovery of 
travel, tourism, and hospitality sector businesses, while also setting 
a course for a sustainable future. This recognition is reflected in the 
Hawai`i Tourism Authority's 2020-2025 Strategic Plan, which is guiding 
our efforts to build tourism back better.
    Mr. Chairman, the Federal Government has a great role to play in 
this recovery. Drawing upon consultation and conversation with a 
diverse group of community members, I respectfully submit the following 
recommendations:

        1.) First and foremost, pursue the fullest potential of the 
        Native American Tourism and Improving Visitor Experience Act, 
        passed under your leadership in 2016. Many of Hawai`i's largest 
        visitor attractions and most significant historic and cultural 
        sites are under federal stewardship. Updating management plans 
        and tourism initiatives to more fully embrace Native tourism 
        will be a significant step forward for Native tourism 
        operations nationwide.

        2.) Utilizing existing federal pathways like the Small Business 
        Administration, enhance the availability of technical 
        assistance, capacity building, financial support, and training 
        for Native entrepreneurs starting new ventures or growing 
        existing businesses. This technical assistance and financial 
        support should also include digital modernization efforts to 
        help Native tourism operations become more competetive and 
        sustainable.

        3.) With county, state, and federal level taxes combined, 
        Hawai`i has one of the highest tax burdens for small business 
        owners. Consider federal income tax relief for small business 
        owners with an emphasis on Native business owners.

        4.) Consider mechanisms for impact fees levied on various 
        levels, from individuals (e.g. access fees for federally-funded 
        highways that traverse environmentally-sensitive areas) to 
        large international companies (e.g. surcharges based on visitor 
        counts) that could fund Native-led stewardship efforts.

    I thank the Committee for the opportunity to share this response. 
The Hawai`i Tourism Authority stands ready to assist in advancing any 
of these recommendations. Mahalo for your consideration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Dennis Alvord
    Question 1. COVID-19 has devastated Native tourism economies in 
Hawaii, in Alaska, and in Indian Country. Your written testimony states 
that the American Rescue Plan allocated $3 billion in supplemental 
funding to the Economic Development Administration (EDA) to assist 
communities nationwide, including Native communities, in economic 
related pandemic recovery efforts. What programs at the Department of 
Commerce will help Tribes revive Native tourism efforts and spur 
economic recovery?
    Answer. For over 50 years, EDA has partnered with Tribal 
communities throughout the United States to help foster long-term job 
creation and attract private investment. EDA grants have helped remove 
economic barriers and attract capital to Indian country, addressing a 
broad array of needs from construction to non-construction, technical 
assistance, and revolving loan fund projects.
    EDA provides Partnership Planning grants to Tribes to develop 
Comprehensive Economic Development Strategies (CEDS) that articulate 
and prioritize their economic development goals--including objectives 
specific to tribal tourism. Each year, EDA funds approximately 50 
Native American planning organizations that are leading these efforts 
across the country. These investments are focused on Tribally-developed 
economic development strategies that are specific to each Tribe's 
unique assets, needs, and opportunities.
    Beyond planning, EDA's Local Technical Assistance and Short-Term 
Planning programs can help Tribes analyze tribal assets and undertake 
more focused planning efforts to help set the stage for new activities 
focused on tourism. EDA's Public Works and Economic Adjustment 
Assistance (EAA) program can be used to implement newly planned, or 
revitalized, tourism-related efforts through infrastructure 
construction. In addition, EAA assistance can also be used to 
capitalize (or recapitalize) tribal financing efforts focused on 
tourism.
    In addition, as outlined in my written testimony, EDA's sister 
bureaus within the Department, including the International Trade 
Administration, the Minority Business Development Agency, the National 
Telecommunications and Information Administration, and the National 
Oceanic and Atmospheric Administration are also actively working to 
help Tribes boost Native tourism and economic recovery in Tribal 
communities.

    Question 1a. And how will supplemental funding enacted as part of 
the American Rescue Plan Act help?
    Answer. EDA's $3 billion in supplemental American Rescue Plan 
funding allocated 25 percent ($750 million) to assist communities that 
have suffered economic injury because of job losses in the travel, 
tourism, or outdoor recreation sectors. The Department is finalizing 
implementation plans for this funding, which will include opportunities 
to help Native communities recover from the pandemic's impacts on their 
travel and tourism industries.
    Additionally, EDA recently announced a new set of Investment 
Priorities, which provide an overarching framework to ensure its grant 
investment portfolio--ranging from planning to infrastructure 
construction--contributes to local efforts to build, improve, or better 
leverage economic assets that allow businesses to succeed and regional 
economies to prosper and become more resilient. EDA's first Investment 
Priority is focused on advancing equity in economic development across 
the nation, including for Indigenous and Native American populations. A 
description of this EDA Investment Priority follows:
    Equity: Economic development planning or implementation projects 
that advance equity across America through investments that directly 
benefit 1) one or more traditionally underserved populations, including 
but not limited to women, Black, Latino, and Indigenous and Native 
American persons, Asian Americans, and Pacific Islanders or 2) 
underserved communities within geographies that have been systemically 
and/or systematically denied a full opportunity to participate in 
aspects of economic prosperity such as Tribal Lands, Persistent Poverty 
Counties, and rural areas with demonstrated, historical underservice. 
For more information on these populations and geographies see: https://
www.whitehouse.gov/briefing-room/presidential-actions/2021/01/20/
executive-order-advancing-racial-equity-and-support-for-underserved-
communities-through-the-federal-government/

    Question 2. Your written testimony also mentioned conducting Tribal 
consultations on a proposed regulatory change that would broaden EDA's 
Tribal eligibility to include for-profit organizations that are wholly 
owned by and established for the benefit of the Tribe. When does EDA 
expect to publish that regulatory change?
    Answer. EDA is considering making a regulatory change that would 
broaden EDA's regulatory definition of ``Indian Tribe''. See 13 C.F.R. 
 300.3. To inform this proposal, in April 2021, EDA conducted two 
Tribal Consultations with Tribal Leaders from across the country to 
seek feedback on the possible regulatory change. Based on that 
feedback, EDA is currently working on updating the proposal to ensure 
any change is impactful, clear, and supports the economic development 
objectives of Tribes across the country. EDA is also cognizant that 
there is ongoing litigation before the Supreme Court that addresses 
tribal eligibility under the CARES Act (see Janet L. Yellen, Secretary 
of the Treasury, Petitioner v. Confederated Tribes of the Chehalis 
Reservation, et al.). While EDA does not anticipate the decision in 
this case impacting EDA's proposed rule change, EDA is ensuring that 
the decision, likely to be issued this month, is integrated into the 
proposal, as necessary.

    Question 3. Prior to the hearing, the Department of Commerce 
informed my staff that a report on the NATIVE Act was sent last year. 
We have not received a copy of that report and request a copy as soon 
as possible. Who will be the point of contact for the report and when 
can we expect to receive it?
    Answer. A copy of the NATIVE Act report with attachments as 
completed and submitted by the prior Administration is attached. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Sherry Rupert
    Question. How can the Federal Government utilize the framework of 
the NATIVE Act to increase support for Native tourism and enhance the 
opportunities visitors have to learn about Native American history, 
culture, traditional foods, language, and arts?
    Answer. The Tourism and Recreation sector are powerful economic 
drivers for the U.S. economy. The infrastructure for tourism is 
developed around fees, taxes and general fund investments that provide 
the foundation for tourism and recreation to thrive. These systems 
support tourism and, as the U.S. recovers from COVID-19, provides the 
assistance needed to rebuild and grow back quickly. Due to the unique 
nature of Native Nations and communities' land status and lack of 
inclusion in local, regional and national systems, they are largely 
left out of the tourism and recreation support structures. Further, 
federal, corporate and foundational funding is not typically dedicated 
to tourism infrastructure--because it is paid for by taxes, fees and 
general fund monies.
    For grant funds that are available, they are frequently project 
based, rather than long-term investments. Many also require match 
funds. This is problematic as there are few resources available for 
Native Nations and organizations to secure the match. This is 
especially true for federal funding opportunities where the application 
process is frequently more onerous, and the match cannot include 
federal funds. Again, due to the unique nature of Native Nations and 
communities, funding they do receive frequently stems from federal 
sources, creating a situation where they do not have resources for the 
dedicated staff to complete the application process for the grants they 
may be eligible for, and they do not have the resources to provide the 
match.
    Tourism and recreation revenue in Native Nations and communities 
are frequently cycled back into paying for essential services including 
housing, food access, education and healthcare; economic demands that 
are not placed on their non-Native tourism and recreation counterparts. 
This reliance on revenue from business enterprises to fund essential 
services and underlying social structures means revenue is not readily 
available to reinvest in tourism development and growth. COVID-19 has 
put unprecedented strain on the tourism and recreation systems world-
wide. This strain is compounded for Native Nations and communities 
because they do not have access to a fully developed tourism network of 
support to rebuild.
    As the U.S. economy recovers from the pandemic in 2022, the 
hospitality/tourism sector will be a crucial and significant driver for 
job growth and revenue as domestic travel continues to grow and 
international visitors return. Now is the time to make significant 
investments in sustainable cultural tourism infrastructure and 
initiatives in Indigenous communities, address underlying inequities, 
strengthen the economic structures we all rely on and build on 
sustainable practices.
    Funding is immediately needed to accelerate and fully implement the 
Native American Tourism and Improving Visitor Experience Act (NATIVE 
Act). The NATIVE Act provides the framework for inclusion in tourism 
planning, alongside support for technical assistance, training and 
branding enhancement. We have already seen the impact of initial 
investments in the NATIVE Act, including AIANTA's work to identify and 
provide technical assistance and training, with 2020 seeing some of our 
largest participation levels in our programming.
    Priority Agency Investment Recommendations: Initiate agency-wide 
investments in implementation of the NATIVE Act through appropriations 
across the federal departments and agencies, as named in the Act, to 
begin to realize the purposes and intent of the NATIVE Act by bringing 
much needed support to build, enhance and grow sustainable cultural 
tourism at this critical juncture as we address the COVID-19 recovery 
efforts, build economic opportunities and address many of the 
underlying disparities from chronic underinvestment in Native Nations 
and communities.
    By focusing on the agencies named in the act, alongside consistent 
and long-term investments in the identification and delivery of 
technical assistance and training, cultural tourism can rebuild and 
support the economic goals and cultural perpetuation in Native Nations 
and communities. This can be achieved using the framework of the NATIVE 
Act: inclusion in planning, consultation, training, branding 
enhancement and dedicated funding support.
    For example, pursuant to PL 114-221, resources could be allocated 
to the Department of Interior through the Bureau of Indian Affairs to 
establish a set-aside specific to the national organization as 
authorized under section 4(d)(3) to fulfill the role as intended under 
section 4 (d)(1-2) of Public Law 114-221 alongside set-asides for grant 
programs related to travel, recreation and tourism pursuant to sections 
2(6) and 5(b).
    For other agencies named in the NATIVE Act, including the 
Department of Commerce, pursuant to PL 114-221, NATIVE Act liaison 
positions (Sections 2-5) could be created; long-term, dedicated support 
could be allocated for delivery of technical assistance and training 
for recreation and tourism planning by a national organization (Section 
4(d)(3)); and targeted grant programs for Native Nations and 
communities could be established without match requirements specific to 
travel, recreation and/or tourism pursuant to sections 2(6) and 5(b).
    AIANTA supports agency-wide investments in implementation of the 
NATIVE Act through appropriations requests across the federal 
departments and agencies as named in the Act to begin to realize the 
purposes and intent of the Act. We urge the committee to support full 
implementation in the intent and purpose of the NATIVE Act. Through 
appropriations and support for technical assistance and training, 
alongside direct investment at this critical juncture in the COVID-19 
recovery efforts, Native Nations and communities will rebuild economic 
opportunities. Investments now and in the longer-term will also help 
address many of the underlying disparities from chronic underinvestment 
exacerbated by COVID-19.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Anthony Rodman
    Question 1. In your testimony, you stated that Indian Affairs will 
announce a round of competitive grants for Tribes to perform 
infrastructure and/or workforce development needs assessments for 
tourism-related economic development. COVID-19 exacerbated the need for 
infrastructure investment in Native communities. What are the major 
infrastructure needs faced by Native communities that limit the 
potential growth of Native tourism?
    Answer. The major infrastructure challenges that inhibit the 
potential growth of tourism include road improvements, workforce 
development for Native communities that focus on the hospitality and 
tourism industry, and access to affordable and reliable broadband. 
Tribes have identified more than $70 billion in transportation needs 
over the next 20 years, which translates to approximately $3.5 billion 
per year. Overall, the tourism industry adage of ``a nice place to 
visit is a nice place live'' is helpful in illustrating that successful 
Native tourism relies on adequate infrastructure of all kinds: roads 
and bridges, workforce development, broadband, and access to clean 
water.
    The American Jobs Plan will invest in infrastructure to build and 
repair roads, bridges, and water systems, and provide investments for 
Native communities to recover from the effect of COVID-19 and help 
build back better.

    Question 2. What assistance will the American Jobs Plan provide to 
drive a Native tourism recovery?
    Answer. The American Jobs Plan will help drive Native tourism by 
investing in equitable workforce development and job training programs; 
bridging the digital divide by achieving 100 percent coverage of high-
speed broadband; supporting clean and safe drinking water; doubling the 
Transportation Program; expanding and rehabilitating Indian Housing; 
fixing rural bridges; strengthening community resilience for 
communities at risk for climate-driven disasters; and plugging orphan 
wells and cleaning up abandoned mines.

                                  [all]
</pre></body></html>
